<html>
<title> - HOW TO IMPROVE ACCESS TO GI BILL APPROVED APPRENTICESHIP PROGRAMS AND HOW THESE PROGRAMS BENEFIT VETERANS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 HOW TO IMPROVE ACCESS TO GI BILL APPROVED APPRENTICESHIP PROGRAMS AND 
                  HOW THESE PROGRAMS BENEFIT VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 27, 2017

                               __________

                           Serial No. 115-32

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                                    _________ 

                       U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-340                         WASHINGTON : 2018              
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                     Wednesday, September 27, 2017

                                                                   Page

How To Improve Access To GI Bill Approved Apprenticeship Programs 
  And How These Programs Benefit Veterans........................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     3
    Prepared Statement...........................................    28

Dr. Joseph W. Wescott, Legislative Director, National Association 
  of State Approving Agencies....................................     4
    Prepared Statement...........................................    29
Mr. Paul Marchand, Executive Vice President and Chief Human 
  Resources Officer, Charter Communications......................     6
    Prepared Statement...........................................    33
Mr. Dan Penski, Special Assistant to the General President, 
  International Union of Painters and Allied Trades..............     8
    Prepared Statement...........................................    36
Sam Shellenberger, Deputy Assistant Secretary, Veterans' 
  Employment And Training Service, U.S. Department of Labor, 
  Prepared Statement Only........................................    40

                        STATEMENT FOR THE RECORD

Ms. Loring Rectanus, Additional Material for Transcript Insertion    44
Mercedes-Benz USA, LLC...........................................    44
NC-Expert, Terry Jenkins.........................................    45


 HOW TO IMPROVE ACCESS TO GI BILL APPROVED APPRENTICESHIP PROGRAMS AND 
                  HOW THESE PROGRAMS BENEFIT VETERANS

                              ----------                              


                     Wednesday, September 27, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Rutherford, 
Banks, O'Rourke, Takano, and Correa.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. I want to welcome 
you all to the Subcommittee on Economic Opportunity's hearing 
today entitled ``How to Improve Access To GI Bill Approved 
Apprenticeship Programs and How these Programs Benefit our 
Veterans.'' Expanding employment and training opportunities for 
veterans is the core mission of this Subcommittee, and today, 
we are here to review, what I believe to be, one of the best 
unknown and underutilized programs designed to help veterans 
achieve economic success. And we want to change that unknown 
part.
    By using VA's on-the-job training and apprenticeship 
programs, veterans are able to supplement their incomes with 
both the stipend payments from VA for their post-9/11 GI Bill 
benefits as well as the wages from their employer while they 
are a trainee. Most importantly, at the end of their training 
program, they are able to step right into a beneficial career.
    I strongly believe there is a growing need to better align 
student outcomes to higher education funding, and I have 
commented on that before. And I don't know many majors or 
programs at institutions of higher learning that can guarantee 
a job, essentially, at the end of their programs. This promise 
of employment through apprenticeship training is what makes 
this program so special.
    Despite many of its positives, there are--very few veterans 
decide to enroll in an apprenticeship program through their GI 
Bill benefits. In fact, the latest data from the Student 
Veterans of America NVEST project found that only 6 percent of 
students who have used the post-9/11 GI Bill are in an OJT or 
apprenticeship program.
    A 2015 GAO report found that those veterans who do find out 
about this are more likely to obviously avail themselves of the 
program. The report also found out that the VA is not doing a 
sufficient job of educating those veterans in transition. The 
GAO report also mentions the paper-based system that is 
inefficient and burdensome. And, finally, the GAO recommended 
the VA do a better job of tracking student outcomes, which I 
know we all on this Committee are interested in, and to know if 
this program is working and what needs to be fixed to make it 
work better.
    I look forward to hearing from our witnesses about VA's 
response to these recommendations and the progress that has 
been made since 2015. I am also concerned about reports we have 
received that the antiquated approval criteria for these 
programs make it incredibly difficult for larger employers to 
create a meaningful apprenticeship program that is approvable 
across State lines.
    I look forward to hearing from Dr. Wescott, with the State 
Approving Agencies, about how we can streamline these 
procedures to incentivize the creation of positive programs 
while maintaining appropriate quality and oversight.
    Finally, I am interested in hearing about our private 
sector witnesses, about the great things that they are doing 
for veterans, and their experiences with the OJT and 
apprenticeship programs, as well as why veterans are valuable 
to their programs and workforce.
    I do want to mention: I thought it was a little odd that we 
invited the Department of Labor, and they have some policy that 
they can't serve on a panel alongside nongovernment witnesses. 
And I just find that odd, and it certainly is inefficient for 
us to do our job and ascertain information from all 
stakeholders to improve the process, improve the service, and 
help our veterans.
    And I met with the Secretary the other day on an unrelated 
issue, and he seems like a guy who has a good deal of common 
sense and good judgment, and I just can't imagine that he is 
aware of this. I can't imagine that he would support that. So I 
hope that changes so we can do our job and get to the bottom of 
these program inefficiencies, cost-effectiveness, and outcome 
opportunities. And enough about that. I don't want to belabor 
that, but I was surprised by that, and I wanted to note that 
publicly.
    With that, I want to recognize my friend and Ranking 
Member, Mr. O'Rourke, for his opening remarks.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman, and I appreciate 
your work and that of your staff and the minority staff in 
bringing this hearing together. Those who are about to testify, 
some of whom we have heard many times at this table before and 
in roundtables that you have convened on the issue of earned 
educational benefits for veterans and how they transition into 
civilian life and are more successful and competitive by the 
oversight that this Committee, this Congress, and the folks who 
are here to testify are helping with.
    Out of interest in hearing from the panel and because I am 
going to leave earlier than I would like, to attend an Armed 
Services Committee hearing, I will conclude my opening 
statement with that and allow you to begin the meeting.
    Mr. Arrington. Well, then I am going to cut my introduction 
short and just say let's start with General Worley.
    And the rest of the panel, if they would make their way, so 
we can get this hearing started, because I do want the Ranking 
Member to be here as long as he can, maximize his time and--
    Mr. O'Rourke. Thank you.
    Mr. Arrington. You bet. And General Worley is the Director 
of VA's Education Service.
    General Worley, thanks again for coming, and you have got 5 
minutes. The floor is yours.

  STATEMENT OF MAJOR GENERAL ROBERT M. WORLEY II, USAF (RET.)

    General Worley. Thank you, Mr. Chairman. Good afternoon, 
Ranking Member O'Rourke, and Members of the Subcommittee. I am 
pleased to be here today to discuss the Department of Veterans 
Affairs' education and benefits programs. My testimony will 
focus on VA's administration of apprenticeship training under 
the post-9/11 GI Bill and other programs.
    Public Law 111-377 signed into law on January 4, 2011, 
amended the post-9/11 GI Bill and expanded the benefits and 
access to programs available to eligible participants. The 
post-9/11 GI Bill is the most utilized, as you know, of VA's 
educational assistance programs. Apprenticeship programs are 
available to eligible veterans through their VA education 
benefits, including the post-9/11 GI Bill. These programs allow 
veterans to learn a trade or skill through training, instead of 
attending formal classroom instruction.
    A veteran generally enters into a training contract for a 
specific period with an employer, and at the end of the 
training period, the veteran gains job certifications or 
journey worker status. Veterans pursuing apprenticeship 
training under the post-9/11 GI Bill receive a monthly housing 
allowance which decreases in 6-month increments as wages are 
increased. Participants also receive up to $83 per month for 
books and supplies.
    The law provides that VA may pay educational assistance to 
eligible veterans and other individuals participating in 
approved training programs. The Department of Labor's 
registered apprenticeships are considered deemed approved, as 
are those approved by DOL or State apprenticeship agencies 
recognized by DOL. State Approving Agencies, SAAs, overseeing 
education and training programs for veterans are responsible 
for approving most non-Federal apprenticeship programs in their 
respective States.
    Similarly, VA has authority to approve apprenticeship 
programs offered by Federal agencies, including DOL registered 
apprenticeship programs offered in multiple States by carriers 
directly involved in interstate commerce. Over 1.8 million 
individuals have used their post-9/11 GI Bill benefits since 
inception of the program in August of 2009. And looking 
historically, there have been over 9,200 OJT and apprenticeship 
programs.
    Looking at all benefit types from fiscal year 2012 through 
fiscal year 2016, over 71,000 beneficiaries pursued training 
through OJT or apprenticeships. And in fiscal year 2017, 
approximately 30,000 beneficiaries are pursuing in this 
training through nearly 5,400 unique OJT or apprenticeship 
programs.
    VA works with State Approving Agencies to streamline and 
standardize the approval process for apprenticeship programs. 
VA also works very closely with the Department of Labor staff 
to ensure registered apprenticeship sponsors understand the 
approval process for GI Bill benefits. This includes 
participating in teleconferences with employers, providing 
information as necessary, and sharing SAA contact information.
    In November of 2015, the VA developed and published an 
informational guide for employers offering or considering 
offering on-the-job training or apprenticeship training to 
veterans and their beneficiaries. A second edition was 
published in July of this year. The VA continues to work with 
the National Association of State Approving Agencies to ensure 
SAAs are aware of participating employers that have received 
national approval, as well as any pending approval concerns.
    There are some challenges in the approval process for 
employers because training may take place in multiple States, 
which, consistent with statutory and regulatory requirements, 
normally requires a separate approval by each individual State 
Approving Agency. The VA has worked to enhance the promotion of 
available OJT and apprenticeship opportunities through the 
transition assistance program, outreach events, various 
publications, and other platforms and strategies.
    In addition to traditional approaches, the VA uses social 
media outlets to provide greater visibility to enhance the 
awareness of these programs.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity today. I look forward your to questions.

    [The prepared statement of Major General Robert M. Worley 
II appears in the Appendix]

    Mr. Arrington. Thank you, Mr. Worley.
    Dr. Wescott, with the State Approving Agencies, the floor 
is yours for 5 minutes.

               STATEMENT OF DR. JOSEPH W. WESCOTT

    Mr. Wescott. Chairman Arrington, Ranking Member O'Rourke, 
Members of the Subcommittee on Economic Opportunity, I am 
pleased to appear before you today on behalf of the 50-member 
State agencies of the National Association of State Approving 
Agencies, and appreciate the opportunity to provide comments on 
apprenticeship training under the GI Bill.
    Mr. Chairman, we certainly believe that working with our VA 
and DOL partners, we can improve in real and substantive ways 
the manner we approve and administer apprenticeship programs, 
and we know that there are ways that we can better inform 
eligible men and women about these programs. We strongly agree 
that outreach efforts need to be improved, and we believe that 
State Approving Agencies can provide a major part of the 
solution. With a slight adjustment in our contractual 
requirements, we could provide a more robust outreach to 
potential employers of veterans and their dependents.
    For example, from fiscal year 2008 until fiscal year 2011, 
SAAs working with our VA partners increase the number of 
approved apprenticeship facilities from 4,471 to 5,285. 
However, since then, the number of approved facilities has 
decreased. In fiscal year 2016, the number of facilities was 
only 4,221. We believe the reason for this decrease is that, in 
the past several years, we and our VA partners have been tasked 
with focusing heavily on oversight of institutions. This 
valuable work has been accomplished with--somewhat at the 
expense of our ability to provide outreach for the OJT and 
apprenticeship programs.
    While we are deeply appreciative of this Congress, and 
particularly this Committee, in providing additional funding 
for SAAs, it is important that we now renew our focus on 
outreach and technical assistance to our Nation's veterans and 
potential employers about this valuable program.
    In the past several years, despite limited time and 
resources, SAAs have been creative and innovative in attempting 
to reach employers and veterans with the messages that there is 
another path to employment for them other than college, and one 
that could prove equally rewarding.
    For example, Illinois, which had 357 approved and active 
apprenticeship and OJT facilities last year, has a vigorous 
outreach program, including out-of-stop visits to potential 
employers. The Washington SAA is an active participant in the 
Veterans Resource Employment Group, aimed at promoting the 
employment of veterans and program approval of apprenticeships 
and OJT programs in State government. SAAs will continue to 
work closely with the Department of Veterans Affairs and other 
local agencies or institutions. And with an appropriate shift 
in our focus, SAAs will be able to visit more active on-the-job 
and apprenticeship training programs on a regular basis.
    We must point out, however, that the current law limits the 
ability of SAAs to be reimbursed under their contract for 
outreach efforts unless the effort can be linked to a travel 
expense. Standard outreach and marketing strategies, such as 
news media and social media advertising cannot be reimbursed. 
NASAA recommends that 38 U.S.C. 3674 be amended to add an 
additional category of reimbursement for outreach and 
marketing.
    NASAA has long sought the automation of the apprenticeship/
OJT process and claims processing. We certainly understand and 
empathize with the challenges faced by our VA partners in the 
automation arena. But it is truly time to replace the fax 
machine and the U.S. Postal Service as the primary means of 
delivering claims forms. Some headway has been made with the 
recent addition of apprenticeship and OJT enrollment 
certifications to the VA-ONCE online system. But complete 
automation would not only provide veterans with a more timely 
payment of benefits but would provide VA and SAAs with the 
ability to accurately track how many veterans are enrolled in 
approved apprenticeship programs.
    NASAA supports the efforts of Congress to modify existing 
laws to clarify the authority of State Approving Agencies, to 
approve registered apprenticeship programs that are based or 
headquartered in their respective State with job sites in 
multiple States. This is model already exists within our joint 
apprenticeship and training committees as well as in the manner 
we approve distance education institutions. And the proposed 
legislation in Congress now simply represents a commonsense 
extension of the model.
    NASAA has worked closely with Congressman Ro Khanna from 
California's 17th Congressional District, and we are excited 
about the potential of this new legislation.
    Mr. Chairman, the apprenticeship programs under the GI Bill 
provide a tremendous opportunity to put our Nation's veterans 
back to work quickly and in meaningful and rewarding careers 
that are needed in our economy. We applaud the efforts of this 
Committee and our VA partners and stakeholders to improve 
administrative capabilities, overcome challenges to innovation, 
and increase outreach.
    I thank you again for this opportunity, and look forward to 
answering any questions that you may have.

    [The prepared statement of Dr. Joseph W. Wescott appears in 
the Appendix]

    Mr. Arrington. Thank you, Dr. Wescott.
    And now, for 5 minutes, Mr. Paul Marchand, who is the 
executive vice president for human resources for Charter 
Communications. Mr. Marchand.

                   STATEMENT OF PAUL MARCHAND

    Mr. Marchand. Thank you. Good afternoon, Chairman 
Arrington, Ranking Member O'Rourke, and distinguished Members 
of the Subcommittee. My name, as you said, is Paul Marchand. I 
am head of HR at Charter Communications.
    Thank you for the invitation here this afternoon to discuss 
a topic that we believe is vital, not just to Charter but to 
the country, and that is to improve economic opportunities for 
our brave men and women through GI Bill approved apprenticeship 
programs. I am honored to be sitting alongside these highly 
regarded representatives from both public and private sectors. 
The organizations represented here today are deeply committed 
and passionate in their support of our country's veterans. And 
we appreciate the Committee's bipartisanship and commitment to 
improving the lives of our veterans who have done so much for 
our country.
    Charter is America's fastest growing TV, internet, and 
Voice Company. We are proud to serve more than 26 million 
customers in 41 States across our land. Every day, a highly 
skilled, diverse workforce helps us deliver better products and 
services under the Spectrum Brand to our customers across our 
footprint. In total, we have 92,000 employees, and we are 
committed to hiring 20,000 more by 2020, primarily by ending 
our reliance on off-shore call centers. And at Charter, we are 
proud to say that veterans are a valued member of our team.
    Today, Charter employs 12,000 veterans, 13 percent of our 
workforce, and essentially we have double the government's 
recommendation of 7 percent. This year alone, between January 
and August, we have hired approximately 4,000 veterans, and we 
are committed to increasing our overall veteran hiring by 5 
percent over the next 3 years.
    Veterans' skills, you see, translate very well in our 
company. They bring mission-orientated mindset that is 
effective across all of our business units and all levels of 
our organization. Importantly, we don't just want to hire 
veterans. We want to help them build on technical skills they 
gain from military experiences and begin a second and important 
career with Charter Spectrum. So we attract, we hire, and we 
intend to retain these veterans through several programs and 
partnerships.
    We recruit veterans by going where the servicemembers are, 
at military bases in the communities in which we serve. Charter 
is now part of a new career resource center at Fort Bragg in 
North Carolina. Through that partnership, we provide 4 weeks of 
training to Active-Duty men and women who are in their final 
months of military service. This program allows Charter to 
begin a relationship with these servicemembers and provide them 
a taste of what it is like to work as a technician, and it is 
at this start of a pipeline into our Spectrum Broadband 
Technician Apprenticeship Program and a fulfilling career.
    This well-regarded program, our apprenticeship program, 
allows these newly hired technicians to receive certification. 
These qualified veterans who were discharged in the last 10 
years can secure GI benefits by completing the program's 
classroom curriculum, the required on-the-job training, which 
allows them to both earn tax-free money in addition to their 
Charter paycheck. Today, over a thousand technicians are 
currently enrolled in 5 States that are home to large military 
bases in our program.
    One graduate of such a program, Fabian Luna, was hired as 
an insulation technician just out of the United States Army. 
And since being hired, he has been promoted five times and 
currently works as a Spectrum field tech supervisor in 
Morrisville, North Carolina. Our program has been so successful 
that we are working with the Department of Labor to expand it 
to a national level program, ultimately offering it in all 41 
of our States that we operate in.
    Moving forward, we have a clear sense of what needs to 
happen to reach commitment to increase hiring in the percentage 
of veterans in our workforce. We will do this by the following: 
growing our presence on bases to ensure we are reaching 
veterans before they leave Active Duty; partnering with key 
military and veteran organizations, like the VFW, Hiring our 
Heroes, and many others; increasing awareness by veterans of 
our hiring roles and opportunities; and ensuring that veterans 
that are hired are not just hired to a job but are given 
opportunities to grow and develop their careers.
    Finally, we want to move faster and go further with our 
efforts to increase the number of veterans in our workforce. 
Charter stands ready to work with Federal and State agencies to 
build the awareness of these programs through more robust 
communications and improve the overall process and make it 
easier for companies to offer programs and veterans to apply 
for them.
    In closing, our veterans served at us at home, abroad, with 
great sacrifice to themselves and their families, and we owe it 
to them to make sure, when they leave Active Duty, they have 
careers that they continue to be proud of and they can support 
their families with good benefits and real pathways to 
advancement.
    I thank the Committee for your time, and look forward to 
answering any questions you have.

    [The prepared statement of Paul Marchand appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Marchand.
    And now I ask Mr. Penski for remarks.
    Mr. Penski, Dan Penski, a special assistant to the general 
president of the International Union of Painters and Allied 
Trades.
    Mr. Penski.

                    STATEMENT OF DAN PENSKI

    Mr. Penski. Thank you, Chairman and Ranking Member. Thank 
you for the chance to share the International Union of Painters 
and Allied Trades' perspective and the great opportunities for 
veterans in the construction and building trades.
    As stated, my name is Dan Penski. I serve as special 
assistant to the general president, Mr. Kenneth Rigmaiden. He 
sends his apologies, as he was unable to sit before you today.
    I served in the U.S. Marine Corps, Marine Corps Reserves, 
Army National Guard, where I retired in 1998. I began in 1974 
as a glazer apprentice in the IUPAT Local 660, Buffalo, New 
York. I continued as an apprenticeship until reaching my 
journeyman status, where I served as a glazer from 1982 to 
1998, before moving into the IUPAT training department.
    My responsibility now is to support and shepherd veterans 
into the Painters and Allied Trades Veterans Program. The IUPAT 
represents industrial and commercial painters, drywall 
finishers, glazers, sign and display, floor coverers across 
North American. A few examples of our high-profile work include 
the painting of the Capitol dome, the installation of the 
exterior and interior glass at the Apple's new headquarters. As 
a matter of fact, our glazers set the largest piece of glass 
ever installed in the cafeteria of Apple's new headquarters.
    Training and education are the vehicles to performing high-
quality work to maintain a leading edge in our industry. We 
utilize our Finishing Trades Institute, which is the 
educational and training arm of the IUPAT. Our joint labor-
management relationship drives the success in the training of 
apprentice and journey workers. The FTI is in the leading edge 
of curriculum development, training, and utilizing of new 
industry technology for all of the crafts that we represent.
    The IUPAT apprenticeship program provides an affordable 
education, does not leave its participants with one penny of 
debt. Our apprenticeship programs are linked to jobs in the 
private and public sectors that earn a living wage and 
benefits. The apprenticeship model that the IUPAT uses is also 
the model of the building and construction trades. It is a 
jointly funded, labor-management model. All of our 
apprenticeship funds across the country are funded through 
contributions, agreed to by labor and management, paid on every 
hour worked. The apprenticeship funds are managed in 
partnership with contractors articulating industry concerns and 
needs, along with identifying recruitment and retention goals.
    Curriculum is developed in-house at the FTI through labor-
management partnership, making our apprenticeship model a 
successful market-driven approach to delivering a highly 
skilled construction worker. This partnership enables our 
membership to pursue lifelong learning opportunities. Nearly 
two-thirds of all registered apprentices in the United States 
work in the construction industry. Among construction 
apprentices, roughly three-quarters are enrolled in a union-
sponsored apprenticeship program.
    Our IUPAT Veterans Program, or PAT-VP, began 4 years ago. 
PAT-VP offers transitioning servicemembers a 4-week program 
that blends classroom and hands-on training on the base at our 
training centers and off base. Upon graduation and separation 
from service, the PAT-VP places each graduate in an 
apprenticeship program, applies course credits, and finds them 
a job with one of our signatory contractors wherever they want 
to resettle in the U.S.
    The inaugural PAT-VP class at Joint Base Lewis-McChord in 
Washington State just graduated from their apprenticeship 
program a couple of weeks ago. We currently work with base 
staff to assist the recruitment and placement of transitioning 
soldiers into our PAT-VP. As the construction industry workers 
meet retirement age, we feel that the veteran community's skill 
set and attributes are a perfect fit for the aging workforce.
    Our expansion is limited by base access in a vibrant 
construction market where signatory contractors have long-term 
job opportunities. To accelerate our placement of veterans, we 
also need access to our National Guard and Reserve centers.
    Benefits of on-the-job training and apprenticeship are 
available for veterans under the various VA educational 
assistance programs. Utilization of the post-9/11 GI Bill 
benefits vary from apprentice to apprentice. These decisions 
depend on the apprenticeship program they choose and where they 
want to relocate. We encourage veterans who enter our 
apprenticeship program not to use their GI benefits if they 
don't have to. Our apprenticeship program is fully funded so 
their education is free. We advise veterans to use the GI 
benefits to pursue higher education. They may transfer earned 
credits from the apprenticeship program and continue their 
education outside of our training. Some vets use their GI 
benefits to offset housing costs and make up the difference in 
pay.
    The needs of tomorrow's workforce require us to adjust to 
the rapid changes in the technology of our industry. This 
Committee should consider ways to strongly encourage the use of 
apprentices on Federal construction projects. As we know, this 
is the best way to increase apprenticeship opportunities. This, 
in turn, will increase the number of veterans placed in career 
paths in the construction industry.
    Thank you for this opportunity to address the Committee. I 
will entertain any questions at this time if you have them. 
Thank you.

    [The prepared statement of Dan Penski appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Penski.
    And thank all the witnesses for your testimony, for your 
time and input. It is an exciting opportunity to expand on and 
enhance a program that is working for our economy. It is 
working for our veterans. It is working for companies like 
Charter Communications. And so let's figure out together how we 
can make it easier for veterans and promote this opportunity to 
veterans so they can avail themselves of it.
    I am going to reserve my time and let my colleagues ask 
questions, and I will--I have several, and if they don't ask 
them, I will get to them here at the end.
    Mr. Takano, I recognize you now for 5 minutes of questions.
    Mr. Takano. Thank you, sir.
    First of all, let me welcome you all here and thank you all 
for testifying today. I wanted to--where is that question I was 
looking for? General Worley.
    General Worley, do we have any data or data on the number 
of veterans using the GI Bill for on-the-job training or about 
which employers are receiving the most GI Bill on-the-job 
training? Do we have any of that data?
    General Worley. In fiscal year 2017, we have by our records 
about 30,000 individuals in OJT and apprenticeship programs, 
and I will use this together because OJT apprenticeships are 
very similar programs. And I don't, off the top of my head--I 
cannot tell you whether more of them are in one particular 
skill set or another. We can--I can take that for the record, 
Congressman, if you would like me to, but the number of 
individuals or beneficiaries so far this year is about 30,000.
    Mr. Takano. Okay. Do we know who are the top employers 
using the GI Bill for OJT?
    General Worley. I don't have that information with me, sir. 
I am not sure if NASAA might have some of that data, but we can 
take that for the record.
    Mr. Takano. Okay. Thank you. We will look forward to that 
information. Will there be any earnings data or outcomes data 
on veterans who use on-the-job training?
    General Worley. One of the recommendations in the GAO 
study, as the Chairman pointed out, was focused on outcome 
measures. If I could just take a minute: There were three 
recommendations with the GAO report. The first had to do with 
outreach and publicizing these programs. This is done in a 
number of ways, as I mentioned in my testimony, there are a 
number of ways that we have been doing that through the 
Transition Assistance Program, through our over 50 different 
outreach events that we supported, social media, website, the 
guide that we published for employers who are potentially 
pursuing these kinds of programs. That recommendation has been 
closed out by the GAO.
    The second recommendation had to do with getting out of the 
fax business and the paper side of submitting the monthly 
certifications that apprentices and OJT folks have to submit 
through their employers. I am happy to report that we have made 
progress in that regard. We are not where we want to be, but we 
have made progress in that regard. The initial enrollment of 
someone in an OJT is now very similar to the initial enrollment 
of anyone else going to an IHL through our VA-ONCE system. So 
that information--that person can be loaded into our system and 
have that done electronically.
    The monthly certification of the work hours by which they 
are paid will be in VA-ONCE by the end of this year. So that 
development has been underway and will be in VA-ONCE. In the 
meantime, that information can be submitted through our Ask A 
Question capability on the GI Bill website, and that in fact is 
being used quite significantly now by employers.
    The third, as you mentioned, Congressman Takano, has to do 
with outcome measures. We are working to be able to get that 
data. We don't have it today. Both the completion of OJT and 
apprenticeships is one data point that we want to have as well 
and, more importantly, the information about employment. That 
is still a work in progress for us, along with all the other 
outcome measures we are using.
    Mr. Takano. Okay. Dr. Wescott, you mentioned something in 
your testimony about marketing, and I was not listening as 
carefully as I should have been. But are there restrictions on 
being able to get marketing to inform veterans about this these 
programs, and is there a prohibition or just not funding for 
it?
    Mr. Wescott. Well, certainly, we are very pleased with our 
increase in funding, but there is no line item in the contract 
as it now stands for outreach and marketing. So, if we are able 
to--one of the things that we will do in marketing as we are 
out on a visit and we have time, we might add a stop to a--even 
if we are at a school, we could potentially, again, if time 
allowed, stop at an employer, potential employer, and talk 
about this program. But any funding that would go to support 
marketing has to be tied to travel. So that is one of our 
concerns, is we would like to see that code rewritten so there 
would be a line item for marketing and outreach so that we 
could pay for advertising, pamphleting, things that wouldn't 
necessarily be associated with marketing.
    Mr. Takano. So there is no prohibition--there is 
prohibition, but there is no funding?
    Mr. Wescott. There is--the problem is that there is no line 
item to provide for it. It is more like a prohibition.
    Mr. Takano. Thank you, Mr. Chairman.
    Thank you, Dr. Wescott.
    I am sorry I went over my time, Mr. Chairman.
    Mr. Arrington. Thank you. The gentleman yields.
    And I now recognize Mr. Bilarakis. for 5 minutes.
    Mr. Bilarakis. Thank you, Mr. Chairman. I appreciate it. 
And thanks for deferring to us and reserving your time, I 
really appreciate that very much.
    And I also appreciate the testimony today.
    I have one--I have a question for the general with regard 
to the GI Bill and the housing allowance. I understand that the 
current law is that you have to go to a brick-and-mortar school 
maybe full time--you can correct me if I am wrong--to get the 
housing allowance.
    Now, there are a lot of veterans, some who are disabled and 
aren't able to take classes at a brick and mortar, or let's say 
it is very inconvenient for them to get to a brick-and-mortar 
school, or it interferes with their work schedule. But there 
are now, you know, you have--of course, we cracked down on the 
fly-by-night schools, but now we have a lot of online schools. 
Of course, the brick-and-mortar schools offer online as well, 
so very credible online schools.
    Are there any exceptions that we can make for a disabled 
veterans or one that--if you have PTS or what have you, and you 
would like to get your education at home, and still receive the 
housing allowance, are there any exceptions that can be made, 
or do we need to change the law?
    General Worley. Absolutely. The way it works today--and 
this was changed with Public Law 111-377. That was enacted in 
2011. And what that did was, for those taking classes online, 
they do get housing allowance at one-half, 50 percent, of the 
national average. So if you are a full time, online student, 
you will get BAH at that rate.
    Now, if you take some of your classes by correspondence or 
online and take some in residence, then your housing allowance 
will be based on the school ZIP Code, the facility code that 
you are going to. So it would be more than--
    Mr. Bilarakis. You would get the full allowance if you take 
half the courses.
    General Worley. Depending on your benefit level.
    Mr. Bilarakis. How do you justify only 50 percent 
reimbursement, you know, where they still have to pay--if the 
housing allowance is to pay for your mortgage, what have you, 
or your bills, because you aren't able to work full time, what 
have you, why not get the full allowance?
    General Worley. To increase that, that would require 
legislation, sir.
    Mr. Bilarakis. All right. Thank you very much.
    The next question is for Mr. Marchand. I hope I pronounced 
that right. I am very familiar with Charter's infrastructure, 
being from the State of Florida. And I know you all do a lot of 
good in the community and help veterans. Your investments 
coupled with nearly 12,000 veterans who make up your workforce 
help local economies and tie you to communities you serve. And 
I want to thank Mr. Penski as well, again, for hiring our true 
heroes, and they are the best workers because they are 
dedicated; they have the work ethic and the integrity. So I 
appreciate that very much.
    Can you expand on your apprenticeship program for veterans 
and whether it is or will be implemented in Florida, as Florida 
is among the most veteran-friendly State, and we have about 2 
million veterans in Florida--in the State of Florida? Sir, can 
you expand on that--on the apprenticeship program?
    Mr. Marchand. Absolutely. Thank you. And, yes, Florida is a 
very important State for our--
    Mr. Arrington. Can you push your talk button over there?
    Mr. Marchand. It was talk. Is that better?
    Mr. Arrington. Yes.
    Mr. Marchand. Sorry about that. Thank you. The State of 
Florida is a very important state in our footprint, as you 
know, and we recently were helping and continue to help recover 
from the hurricanes that have gone through that area. So we 
appreciate the partnership we have had with the state 
legislators.
    Currently, it is not offered in the State of Florida, but 
it is a state that we are working to roll out the 
apprenticeship program to. We are currently in five states, 
Missouri Nebraska, North Carolina, South Carolina, and Texas, 
and our intent is to go after all states that we have our 
business operations in, which would be 41 total states. Some of 
the states that we are going to go after require us to have 
national Department of Labor certification, and some states are 
going to require individual state by state applications and 
processes. So Florida is absolutely in our focus area and will 
be part of where we go next.
    Mr. Bilarakis. Thank you very much. This question, again, 
is for you, sir, and also Mr. Penski, if he wants to talk as 
well on this subject.
    Are there particular skills that veterans have that make 
them more attractive to an employer like Charter or to the 
Painters Union, what have you? Let's go ahead and start with 
you, sir, Mr. Marchand, and Mr. Penski, if you would like to 
respond as well.
    Mr. Marchand. You know, I think there is a wealth of skills 
that veterans have that we have already addressed. You know, 
there is a tremendous amount of technical capability and 
expertise. They are very process orientated, clearly 
collaborative. I would also say that, beyond skills, there is a 
tremendous character. There is a work ethic and character that 
is unquestioned. They are dedicated. They are hard-working. 
They are resilient. They work through things like hurricanes 
with pride and with passion.
    So I think it is a combination of those two things, 
character and capability, that make them outstanding employees, 
and typically they stay a lot longer than our average 
employees. They retain in the company.
    Mr. Bilarakis. I agree. Well, my time is expired, but, Mr. 
Penski, can you briefly address that?
    Mr. Penski. Thank you. I would add a couple of more things. 
Number one, they are mission orientated, and they will get the 
job done. And they are very team orientated, which is very 
important to the construction trades that we represent. Their 
safety is up to standards. And being a former Marine and 
looking at these veterans coming into our program, these 
veterans look out for each other.
    And in this apprenticeship program, it is another family 
for them coming, transitioning from the military into these 
apprenticeship programs and getting into our union. It is 
something that just energizes them and motivates them. They are 
there every day to go to work. They understand that making 
money for our employer is huge, and they do it. They do a great 
job.
    Mr. Bilarakis. Thank you. And thank you for your service. I 
am looking forward to you bringing the program to Florida.
    Mr. Penski. It is there.
    Mr. Bilarakis. Mr. Marchand, Charter. Thank you very much, 
again.
    Mr. Arrington. I want to thank the gentleman from Florida. 
He yields.
    And I want to recognize my friend from California, Mr. 
Correa, for 5 minutes.
    Mr. Correa. This is a most important hearing, very 
important issue, and thank you gentleman for all you do for our 
veterans.
    Mr. Penski. You are welcome.
    Mr. Correa. It is my opinion that the best thing you can do 
for a veteran when they come back stateside is to get them a 
job, getting a good middle class job.
    And, gentlemen, last week, I was in Los Angeles. I ran into 
the chancellor of the Los Angeles Community College District. 
We struck up on a discussion about construction, bonds issued 
in LA, and project labor agreements. They have a PLA in LA 
Community College. I asked them, I said: Do you have a local 
hiring requirement?
    He said: Yes, we do. We have a local content in--veteran 
content requirement at 35 percent.
    And I said: So what percentage is now veteran and local?
    He said: Fifty-five percent of all the employees LA 
Community College construction are at that level.
    In Orange County, a number of schools districts, a number 
of cities are moving in that direction as well.
    The State of California is just embarking on a massive, 
massive brick-and-mortar construction project throughout the 
State of California. So you got what appears to be massive 
demands for trained folks in the construction industry. A lot 
of them also happen to be retiring.
    And so the general question to all of you gentlemen is, I 
presume you have a plan to hook up with all these folks that 
are going to need all these trained workers. And given all the 
veterans that are coming back, I think we are looking at a gold 
mine if we can figure out how to connect all these veterans 
with all these new jobs that are about to explode, at least in 
the State of California, in my district.
    Mr. Wescott. Congressman, let me just say that, we in the 
State Approving Agencies are excited about those opportunities. 
I can tell you from my perspective, because I also serve as the 
Executive Director of the North Carolina State Approving 
Agency, we just began working with this contract for 
apprenticeship and OJT this past year. One of the things that I 
did was I met with the president of the North Carolina 
Community College system to talk about how we could promote 
apprenticeships in conjunction with that system. We think there 
is a very real possibility of linking that outreach. I would 
also look forward to meeting with National Guard leadership in 
the State. And also--
    Mr. Correa. Thank you very much for that.
    Mr. Wescott. Yes. So that, again, we could reach out to 
these folks and make them aware of this extremely valuable 
program.
    Mr. Correa. And if I--let me say that a lot of these folks 
at the local level that are going to hire these construction 
folks would be more than happy, I am sure, to reach out and 
work with you, really not at very high cost of marketing and 
trying to get your message out there, but just trying to get 
those workers in the front door. I know millennials get a bad 
rap, but I think veterans at the same time get an excellent 
rap. So I think this is a tremendous opportunity to get our 
veterans employed.
    Mr. Wescott. As a former infantryman, we are not afraid to 
get our hands in the dirt. And, yes, we would look forward to 
working with those sectors as well.
    Mr. Correa. And I offer my office as well as a resource.
    Mr. Chairman, I yield the remaining of my time.
    Mr. Arrington. I thank the gentleman from California.
    I now recognize the distinguished gentleman from Florida, 
Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    And thank you, panel, I can tell you as a Representative 
from northeast Florida's Fourth Congressional District, which 
has a lot of military installations, and we have about 150,000 
retirees there in northeast Florida. This is really critical I 
think to the economic success of northeast Florida and, quite 
frankly, our country and does a great service to our veterans 
who have put so much on the line.
    I also want to say a special thank you to Charter and Mr. 
Marchand for the commitment. You know, we just suffered 
Hurricane Irma in the State, and it was devastating, to say the 
least. And I know your company really stepped up in the $1.3 
million help there, and we really appreciate that.
    So, Mr. Marchand, let me ask you this question. I was 
reading, and I think you mentioned also that you all are 
intending to hire, if I got the number right, 20,000 workers by 
2020. And can you explain how you intend to, I mean--you talk 
about a marketing nightmare--how are you going to achieve that?
    Mr. Marchand. Well, first and foremost, we are doing that 
because we have a number of our jobs that are located offshore, 
and our mission, our values, our company's operating 
philosophies to have those as American jobs in our American 
soil. And recently in McAllen, Texas, we opened up a 600-person 
call center to serve Spanish-speaking customers across the 
United States where previously that work was done outside of 
the footprint of the U.S.
    So it starts first with the mission of having service and 
resources to our customer base in the communities in which we 
serve. That is so critical. So, if you have a technician who is 
serving you locally and a call center that is serving you in a 
geographic footprint that is near you or a news station, an 
outlet, that is providing information to you locally, that is 
kind of who our company is.
    How we are going to do that, we have a well-oiled machine 
in terms of recruitment. We are actively sourcing candidates. 
We are actively using all means, whether it is anything from 
local like career fairs or connections with universities and 
colleges and trade schools, or it is the, you know--
    Mr. Rutherford. So people can get an idea how critical 
these positions that you are talking about are, can you talk a 
little bit about the benefits for those employers that come 
into that apprentice program?
    Mr. Marchand. We have outstanding benefits. We provide 
wonderful health and welfare benefits. We provide a wonderful 
401(k). We match at 6 percent. We have an additional 3 percent 
non-elective. So, even if you are not a participant in our 
401(k), we automatically enroll you in 3 percent so that you 
can start saving for long-term retirement.
    We have ability for you to go back to school at night, if 
you want to do that, if you don't have your undergrad or 
graduate degrees. So we have comprehensive benefits.
    Mr. Rutherford. Thank you.
    Mr. Marchand. And pay. And our intent is to sort of go out 
and find talent that can be part of our future.
    Mr. Rutherford. These sound like great positions to raise a 
family and create the whole American Dream.
    Dr. Wescott, can you please talk a little bit about why you 
think we have had this drop in the number of approved OJT 
apprentice programs when so much is--you know, since 2011, it 
has actually gone down. And I noticed, when General Worley 
mentioned that you were going to be able to do some of this 
filing with VA-ONCE, you seemed excited about that. Is that 
going to help turn some of these numbers around, do you think?
    Mr. Wescott. We would certainly hope so. And I am indeed 
excited about that. And the fact that that could happen within 
the year will be a real plus, not only in us being able to 
attract what is going on in our States and where we have active 
apprenticeships, but then using that data and information to 
grow those apprenticeships. I think basically one of the 
reasons that our numbers went down--and, again, I want to thank 
this Committee and this Congress for increasing funding for 
SAAs. We were flat-funded for 10 years. And, of course, our 
expenses went up.
    Also, around 2011, we began helping the VA with their very 
important work with compliant surveys. So we added an 
additional mission as well. So, you know, if you have X number 
of folks and you shift your mission some, then it has to shift 
away from something. We are now excited at the possibility that 
with the increased funding with a renewed focus on 
apprenticeship and OJT, that we can really grow this sector. I, 
for one, am convinced that there are folks who just don't know 
about this benefit at the level which they need to.
    Mr. Rutherford. Yep.
    Mr. Wescott. And we want to reach those people.
    Mr. Rutherford. Right. And that is why I was asking Mr. 
Marchand. Put some of that out there about what kind of 
positions these really are. So thank you, Mr. Chairman, my time 
is up, and I yield back.
    Mr. Arrington. The gentleman yields, and now I would 
recognize Mr. Banks from the great State of Indiana.
    Mr. Banks. Thank you, Mr. Chairman.
    Mr. Penski, could you maybe dig deeper into an explanation 
of how the apprenticeship programs are funded and what portion 
of that funding comes from the Federal Government?
    Mr. Penski. There is no funding from the Federal 
Government. The funding for the IUPAT apprenticeship programs 
are collectively--they are contributions that are collectively 
bargained between both labor and management. So, each year, the 
IUPAT, the contributions may vary within the district council. 
We are broken into district councils. Those are the umbrellas 
under the IUPAT. So those are funded locally. All that training 
is funded locally.
    On the international side, the Finishing Trades Institute, 
that is also funding off of per hour. And through that funding, 
grants go--training grants go down to our training centers 
throughout the IUPAT. In every area of the country, we have 
some very good training programs because of the economy, in 
large numbers. In other areas, we have smaller ones, so they 
get subsidized above and beyond through the Finishing Trades 
Institute or the IUPAT.
    Mr. Banks. So funded entirely by dues-paying members?
    Mr. Penski. Correct.
    Mr. Banks. And to expand on that. Can any veteran join an 
apprenticeship program, or how do you select the veteran who 
would be able to participate as an apprentice?
    Mr. Penski. Up at Joint Base Lewis-McChord, there is 
consultation--it is getting into the TAP Office, explaining to 
the staff there and to the veterans what the programs are 
about. Then there will be one-on-one consultations, talking 
about the programs, talking about the benefits. Because--it is 
ironic because people hear Painters Union, and they think that 
is all that the program is about painters. Once they really 
understand that, as I said earlier, drywall finishers, glazers, 
so on and so forth, they may have a choice--a wider choice than 
to say what program I would like to get into.
    At that point, if it is through the base, and we end up 
doing a 4-week immersion program, then we will put those folks 
into the direct apprenticeship program.
    Mr. Banks. But how specifically are they selected?
    Mr. Penski. Looking at their ASVAB, looking at their--
through their communication, through their interest in the 
programs, we found a little bit in the past where some of the 
veterans came into the TAP office, they wanted to get into the 
apprenticeship program, but it really wasn't for them.
    Glazing, you can't be afraid of heights. Industrial 
painting, you can't be afraid of heights. So, once some of 
these veterans came in, they decided: Well, maybe I will look 
at another craft, or maybe I will go in a different direction.
    So it is not for everybody. But the biggest thing that I 
think that the general president's vision is, it is 
opportunities, and it is opening the opportunities for our 
veterans to get into the program.
    One of the other methods we have is we have a Painters and 
Allied Trades veterans' website. And I get emails from veterans 
all the time inquiring about the IUPAT. It starts off with a 
few emails. And I will ask for a resume. Then it turns into 
some phone calls. And if this veteran says, you know, I want to 
go to Indianapolis. I will contact the training director there. 
Whatever trade they were looking at, I will walk them through 
all of the crafts that we represent, the timelines of the 
apprenticeship, the benefits that they receive from on-the-job 
learning to getting college credits for the courses they take, 
and the advancements beyond that. Then we will get them put 
into the program or the area that they select to go into.
    Mr. Banks. Thank you.
    General Worley, does the VA help counsel veterans and help 
them figure out whether an apprenticeship program might be 
better for them than a 4-year degree?
    General Worley. We don't. At least in education service, we 
do have the resources to counsel individually in the vocational 
rehabilitation area, which is not my lane. But there is 
counseling provided for disabled veterans for their education 
and employment efforts. So our work at having the consumers--
informed consumers is through the various media that I 
mentioned and outreach events and those types of things, sir.
    Mr. Bates. So it is a capacity--it is a funding issue to 
allow you to give that good counsel, that good advice to 
veterans to help them choose one over the other?
    General Worley. Well, we have about a million beneficiaries 
a year using the GI Bill benefits that we have, so that is a 
big task to be able to counsel each one of them, sir.
    Mr. Banks. Thank you. I yield back.
    Mr. Arrington. The gentleman yields. And now I will yield 
myself 5 minutes. And following on some of these questions--and 
then we may have a second round for those who want to stay. And 
I know Mr. Takano has some follow-up questions.
    General Worley, I apologize for not saying General Worley. 
You earned that title, and thank you for your service. This 
notion of a monthly certification by the recipient participant 
in the program and the institution or the company seems a 
little onerous to me. It seems like you could do a semiannual, 
maybe even annual with audits, sort of signed off on by both 
the institution, so you got accountability on both ends, but 
sort of just sample the population and audits, save some money 
there. That was just the first thing that came to mind when I 
was asking--learning about the program and asking questions 
with my colleagues.
    So any thoughts about that? So there is not a monthly 
paperwork issue?
    General Worley. Mr. Chairman, the purpose of the monthly 
certification, and maybe certification is the wrong term, but 
it is to verify to the VA the number of hours that were worked 
so we can put that into the system and pay the beneficiary.
    I think as we get better in terms of the technology, this 
will be very easy to do and very unburden some through the VA-
ONCE system. But, I mean, certainly, you know, you could do 
that less frequently, but, again, the purpose is to get those 
work hours and the rate--
    Mr. Arrington. Pay them per the amount of time they have 
spent up to that point.
    General Worley. Exactly.
    Mr. Arrington. So that makes sense. I appreciate that. And 
then Ro Khanna, Representative Khanna is a good friend. And I 
am always encouraged when other Members outside of our 
Committee engage their veteran population and come to us with 
ideas on how to fix things and make them easier for our 
veterans and improve the quality of service, et cetera. So I 
really wanted to say, first of all, kudos to Mr. Khanna.
    And it sounds like a great idea to me that you have a 
company headquartered in X State that has a number of other 
States with a presence that they would be able to or you all 
would be able to safely, responsibly and appropriately certify 
them in a streamlined way in other States, maybe even just with 
one approval that is reciprocated throughout the number of 
States where they have a presence. I mean, common sense, 
doable, still safe, responsible for the veteran and all that.
    Any comments, Dr. Wescott?
    Mr. Wescott. Mr. Chairman, we indeed are very pleased at 
this idea. We have been in conversations with the Congressman 
over the past several weeks about this. And when they first 
came to us, we talked with his team and then actually with him 
as well, and talked about how we could do this. It is an 
extension of what we are already doing in the distance learning 
area. It makes sense.
    We are making sure that we have the protections and, 
therefore, the veteran, you know, the State out of which this 
national apprenticeship is originating, we will make sure that 
it meets the required standards of the code. The veterans have 
protection. But then, you know, in the training sites where 
those veterans are working, you know, we won't necessarily need 
to be involved in the approval, but if there is an issue, State 
Approving Agencies within that State could address those as 
well.
    So, yes, sir, we are very pleased with the thought of this 
expansion and anything that will move this program forward.
    Mr. Arrington. And let me just say--and I think it goes 
without saying--I hope that you guys feel comfortable enough to 
talk to any one of us, but always look for those opportunities. 
I know that sometimes you can flex the policy to the maximum, 
but you run up against a legal barrier, and where it doesn't 
make sense, where technology can improve that or continue that 
in a responsible way. But where there is a legal barrier, 
please let us know so we can work with you to just make things 
better for everybody.
    I have got other questions. Let me ask my last one for this 
round to Mr. Marchand. Is that how you say it, Marchand?
    Mr. Marchand. That works.
    Mr. Arrington. Marchand?
    Mr. Marchand. Better the second time.
    Mr. Arrington. I am from west Texas. We, you know, French, 
and--you know.
    Kudos to your company, to Charter and your ethos, your 
values for keeping jobs here--I know that is tough to do these 
days--and also for your commitment to the veteran community.
    It seems like you guys have as much of an incentive to 
promote and raise the awareness of this program as the VA. I 
mean, you guys benefit. And what can we do to make it easier 
for you to engage at the right points in the process, whether 
it is on base, offsite? In whatever form or manner, how can we 
open up those opportunities so that you can do the job that all 
stakeholders need to be doing to make these guys aware of the 
program?
    Mr. Marchand. Sure. Thank you first for the compliment.
    And I think there are a few things that have been said, but 
I will sort of repeat them. You know, awareness of the program 
is far paramount. You know, letting veterans know that this is 
something they can avail themselves to is so critical. I think 
we will do everything we can, but it has to be sort of a 
collective voice. Right.
    I think awareness of the opportunity to other corporations, 
which is something as I was asked to come here today, was 
really a light bulb that went off that said, you know, what 
more can Charter do with our industry company partners and non-
industry company partners to make them aware of everything we 
are getting out of it that they could join in the cause? Right. 
So that is something I think we will try to take on.
    Embracing digital, there is no question, if we can make 
things more streamlined and easier and more effective. This 
sort of concept of one pass for us across the country, since we 
operate in multiple States, will make it easier. We will do the 
hard work as the pioneering company. I am sure other companies 
behind us would benefit from, yeah, I operate in multiple 
states. Give me sort of the one DOL, sort of one pass, one 
approval to do this. Make it easy for the veteran themselves as 
they are going through it and the hours that they have to put 
in and all the paperwork they have to do. And, you know, I 
think embrace it as much as we have embraced the concept of 
simply hiring veterans.
    You know, it is this conversation about not every veteran 
has to go to a 4-year institution. Joining companies and 
getting on-the-job work experience that we are committed to 
providing and other companies are committed to providing is a 
great route as well. A lot of times there is a pressure to say, 
okay, go to school, and that is not the answer for everybody. 
Certainly, at a certain life stage, it is not.
    So I applaud everything that is being discussed, and we 
think there is a great opportunity.
    Mr. Arrington. My time has expired.
    I now recognize Mr. Takano for another 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman. I appreciate this.
    Mr. Marchand, tell me, how is your program--I imagine the 
company funds the apprenticeships. Is there any cost to the 
veteran to participate in this apprenticeship?
    Mr. Marchand. There is no cost. We are fully funding both 
the on-the-job training, we are paying their salaries. We are 
investing in future talent for our company.
    Mr. Takano. And you have various kinds of apprenticeships. 
Do they lead to any kind of certifications?
    Mr. Marchand. They lead to this broadband certification. 
Yes, they lead to certification of being a technician.
    Mr. Takano. And does this certification only allow them to 
work at Charter, or could they take that certification and work 
for any--
    Mr. Marchand. It is transferrable.
    Mr. Takano. That is really amazing.
    Mr. Marchand. We are helping them be active workers in the 
workforce in general. We will do everything to retain them, but 
if they choose to go, they can land other roles.
    Mr. Takano. And do you understand the distinction between a 
registered apprenticeships versus an apprenticeship that is not 
registered? Is that a concept that is familiar to you?
    Mr. Marchand. You mean registered like--
    Mr. Takano. There is such a thing as registered 
apprenticeships and not. Does the State Approving Agency 
understand what I am trying to talk about here? You might want 
to comment on that briefly.
    Mr. Wescott. I will be glad to, Congressman. Basically, of 
course, registered, they have to go over to the Department of 
Labor or to the State departments of labor and register that 
apprenticeship. If for some reason they don't want to do that 
or do not wish to do that, then we can--we could work with them 
to develop an apprenticeship, a nonregistered apprenticeship, 
and then the veterans could use their benefits in that program.
    Obviously, if it meets the qualifications for a registered 
apprenticeship, we will always encourage them to engage with, 
you know, our State departments there.
    Mr. Takano. My understanding from counsel is that Charter's 
apprenticeships are registered. The benefit of the registration 
is that there is the recognizable, they are a certification 
that is recognized. And hence, your apprentices, once they have 
completed the program, are able to work anywhere. That is an 
important thing to me, this distinction of registered.
    Some people think it is too cumbersome to get this done, 
but I think the due diligence is really of service to the 
veteran and anybody who participates in an apprenticeship. So I 
really congratulate Charter for doing that, for registering the 
apprenticeship and for offering that extra value. You are 
taking a risk, to some extent, of training somebody that could 
actually leave you and go someplace else. I doubly offer you 
kudos for that.
    Mr. Penski, a little bit more about the Project Labor 
Agreements and how they help apprentices. What I know about 
Project Labor Agreements is the negotiation that happens with 
an entity, a public entity. And what happens in these 
agreements is that a certain amount is set aside for 
apprentices and for veteran hire and local hire. Is that not 
correct?
    Mr. Penski. You are absolutely correct on that.
    Mr. Takano. And what I find remarkable in the question of 
my colleague Mr. Banks is that no Federal dollars are involved 
in paying for these apprenticeships. And, again, is there any 
cost to the veteran or the apprentices to participate in your 
programs?
    Mr. Penski. There is no cost at all. It is all self-funded 
through the IUPAT and the affiliates in the IUPAT.
    Mr. Takano. And is the IUPAT, like many other labor unions, 
do they have training facilities? Do you have a training 
facility where you train your apprentices?
    Mr. Penski. Currently, I believe there are 107 multicraft 
training centers throughout the IUPAT today.
    Mr. Takano. And who pays for those? Who pays for those 
facilities? Who funds those facilities?
    Mr. Penski. Those are built by labor and management, their 
contributions. In some cases, if there may be a government 
grant available for something through our government affairs 
departments, they may seek out grants. As a matter of fact, I 
believe right now there are three of our training--our district 
councils that are accredited through the COE, and we are 
working on the majority of our training centers to become 
accredited. So they are going to become colleges, self-funded.
    Mr. Takano. That is really quite remarkable. But the bulk 
of the funding comes through these shared agreements between 
labor and management, the contributions?
    Mr. Penski. The majority of that money, yes, comes through 
the collective bargaining agreements collectively bargained 
between labor and management.
    Mr. Takano. I would love to find out how to visit one of 
your training centers. I have visited some centers from other 
labor, but, in my estimation, no one does it better than the 
craft unions and the labor unions. So I congratulate the 
investment and commitment you have to your members and to 
apprentices and to our veterans. So thank you.
    And my understanding is that these Project Labor Agreements 
are one of the few ways in which we can give preferences to 
local hires and to veterans and to actually build those 
preferences into those agreements.
    Mr. Penski. You are absolutely right. And I think that is 
probably the best avenue to make sure that we get these 
veterans onto these Project Labor Agreements in those local 
communities.
    And I just would like to add too, I mentioned earlier about 
the National Guard and the Reserve centers. Those folks live in 
those communities already. They spend in those communities. 
Their children go to school there. To invest in those veterans 
coming out of those National Guard centers locally and then 
putting them onto a project labor agreement is just a--is a 
total win-win. Not to take away from our veterans who may want 
to transition out of Joint Base Lewis-McChord or Andrews and 
move somewhere else, but investing locally in those veterans 
and putting them to work is phenomenal.
    Mr. Takano. Mr. Chairman, before I yield back, I just want 
to say that in this Congress and in previous Congresses, I have 
noticed there has been a bipartisan majority that backs the 
concept of the Project Labor Agreements. And I am really 
pleased to know that members of your party and my party have 
joined together with the craft unions to protect that 
principle. Thank you.
    Mr. Arrington. Thank you for your comments.
    The gentleman yields. And I now recognize Mr. Rutherford 
for another 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    I want to follow up on Mr. Takano's first question dealing 
with the registration of programs and the chartering of 
programs. I think, Mr. Wescott, when you responded, it sounded 
like it was either DOL can offer that certification or the 
State authorizing agency can do that or--well, you didn't get 
into this, but in the material it says or the VA.
    So my question is, seems like we have three bodies here 
that you guys are having to suffer under for these 
certifications and regulations. You know, is there some way--
and it seems like the State authorizing agencies would be the 
place to go because they know the particular certifying 
requirements for licensing and things within their 
jurisdiction. Is it an and, or is it an or? It sounds like an 
and to me.
    Mr. Wescott. I think both of us can speak to that. I will 
speak to what I know of in North Carolina, because I have 
become remarkably acquainted with this sector having picked up 
this contract.
    It really is an and, and it works well as long as the 
liaison is there. And we have worked hard in North Carolina to 
make it work. We work very closely with our State office. So 
that if a business owner calls in, he is interested in setting 
up a program for veterans, an apprenticeship, we will then 
connect him with the State office so that they will work with 
him to set up a registered apprenticeship that will be 
available for all of his employees. And then if he has some of 
those employees that are veterans, he then sends them back to 
us, provides us--he or she sends them back to us, provides us 
with the information we need to then add a couple of documents 
in our office and work with him to explain how it will work 
with the GI Bill. And then we send that over to the VA, and 
they process that, give him a facility code, and he is now 
able, that veteran is now able to undertake his training.
    It is a smooth process, but certainly for the veteran, he 
gets a little--and I am proud of this--a little higher degree 
of protection and attention, because we are involved in there 
making sure that the employer is fully aware of what needs to 
be done.
    Mr. Rutherford. General?
    General Worley. Thank you. If I might add, think about it 
in a couple of different ways. DOL registered apprenticeships, 
the employer has to go through a certain, you know, set of 
requirements and meet certain criteria and standards to be a 
DOL registered apprenticeship.
    In the law, that is a deemed--from the GI Bill perspective, 
that is a deemed approved apprenticeship for GI Bill. So they 
don't have to reinvent the wheel when they go to the State 
Approving Agency. They have to provide a notification. There is 
a certifying official and an application and then the training 
package that they already had. So it is a streamlined process 
to get GI Bill approved, if you are already a DOL registered 
apprenticeship. If you are not a DOL registered apprenticeship, 
then the SAA has the responsibility and authority to review the 
training plan and make sure the wages are there and all of 
those things.
    Mr. Rutherford. So those are the employers that we are 
hearing from, the ones that aren't in those already certified 
or registered programs that say they are double-working 
everything. Is that correct?
    General Worley. There might be that complaint out there. I 
don't know. But there was a significant effort back in 2015 
that has progressed to today to try to streamline that process 
and reach out to DOL registered apprenticeship employers and 
let them know, if they didn't already know, that it is just a 
couple more steps to be a GI Bill approved apprenticeship.
    Mr. Rutherford. To kind of follow up on the offer by the 
Chairman, if you would, if you think there is a need for a 
legislative fix to streamline that for those employers out 
there, let us know. Thank you.
    I yield back my time.
    Mr. Arrington. The gentleman yields.
    And the chair would offer any comments from Mr. Correa. Mr. 
Correa, if you have comments.
    Mr. Correa. Conclusion, or are we having the last round?
    Mr. Arrington. No, we are going to keep going as long as 
you have questions.
    Mr. Correa. Very quickly, do we have, gentlemen, any 
thoughts of following up on how veterans do after they finish 
your apprenticeship programs, a few years later to follow up to 
make sure that veterans are actually staying there, progressing 
in their careers, or maybe they need additional help to get 
over any of those invisible wounds they bring back from the 
theatres of war?
    General Worley. I will just respond to that by saying that 
we are working on outcome measures and employment. I am not 
sure about the longer term. Our initial effort is to find and 
track completion and employment, initial employment. But your 
point is well taken, Congressman, and we need to be looking 
long-term at that.
    Mr. Correa. And if I may, ultimately, what we are doing 
here is connected to the VA and services down the road. So I 
know it is a little bit hard to make the jump, but they are all 
connected ultimately. And just some food for thought into how 
we can maybe make that jump and make the system seamless for 
some of these veterans who a few years later find out that, 
again, these invisible wounds come to the front.
    Mr. Wescott. You know, one of the things that State 
Approving Agencies would like to do, Congressman--and thank you 
for that question--is, again, to focus more of our efforts in 
this area. We would like to make more visits to apprenticeship 
sites and able to talk with veterans at those sites and find 
out what is working, and also find out, while we are there on 
that visit, where there may be other opportunities that we can 
also reach out and make others aware of this.
    So we do want--we are very much interested in not just the 
initial approval, but in following up on what is going on after 
that.
    Mr. Correa. Mr. Chair, I yield the remainder of my time.
    Mr. Arrington. The gentleman yields.
    I yield myself 5 minutes.
    Tracking results, outcomes is the key for us and for you 
all to know what is working and how we can improve on the 
programs or when we need to move on to another program that 
will work. And so I am always concerned when there is an issue 
with just collecting data, outcome data, or if the metrics are 
not the right metrics, they are inputs, not outcomes.
    And so, General, tell me what we are collecting now to know 
if this--intuitively, we believe it works. We have an example, 
a fine example here today, but we have got to look at the rest 
of the country, and we want to reward those people where the 
engagement is working and et cetera. What are you tracking now? 
What needs to be tracked? Give us kind of an update on that.
    General Worley. We have been working for some time broadly 
on outcome measures for the whole program. Those have been 
fairly traditional measures, graduation rates, certificate of 
completion, retention, persistence, those kinds of things. As I 
testified back in the hearing after the GAO report was 
published, we hadn't really focused much, and the report 
identified that, on OJT and apprenticeship results.
    So as we have continued to work and refine these things, 
again, we have work underway with the Census Bureau to develop 
an MOU with them to help us look at employment. Data mining in 
our business is a challenge, we will be candid with you.
    So when we move the enrollment--now that we have moved the 
enrollment certification of OJTs and apprenticeships into the 
VA-ONCE system, which is what the schools use and the employers 
use now, we will be better able to track completion rates for 
OJTs and apprenticeships, because that will be right in our 
system. And then we will continue to work on, more importantly, 
did they get the job that they were OJTing for, as an 
apprentice for, either in that company or elsewhere. So it is 
still a work in progress, Mr. Chairman.
    Mr. Arrington. It seems, to your last point, you know, did 
they get the job, and how have they progressed, and now that 
they have this certification that is transferrable, now they 
are more marketable. And so whether they are at the job where 
they completed the program and then beyond, it seems really 
straightforward to me.
    And I just--I would encourage you, because it has been 2 
years since the GAO report. I know how good you are and earnest 
you are to serve. These guys, these are your colleagues, but we 
cannot get excited about, I can't personally, unless I know 
something is working. And without data, you know, I can't say 
that they are all like Mr. Marchand.
    So please expedite that so that when we have another 
discussion, you can tell us exactly how things are going in 
that regard and that we, in fact, are collecting data.
    Anything on the GAO front that you think is worth talking 
about in terms of what you believe is on the money and that you 
have already begun the process of implementing so we can make 
this a better program, other than the tracking and the 
education and promotion? Is there anything else?
    General Worley. Nothing else. As you know, there were three 
recommendations. Two of them are closed out.
    Mr. Arrington. I guess I should say anything beyond that 
that you think we need to be doing?
    General Worley. Beyond that? Not at this point. I think 
mention has already been made of looking at ways to facilitate 
national approvals. And I think that would be very helpful, but 
nothing else beyond that.
    Mr. Arrington. I will yield any other time necessary for 
final comments or questions. Mr. Takano?
    Mr. Takano. Just briefly.
    Mr. Penski, you looked like you wanted to say something 
earlier, and I don't think my colleague Mr. Correa saw you. Do 
you want to respond to something he said earlier?
    Mr. Arrington. Did Mr. Correa have his glasses on?
    Mr. Correa. It does not help much these days.
    Mr. Arrington. Go ahead, Mr. Penski.
    Mr. Penski. I just wanted to comment, you made mention of 
our veterans who may be struggling from physical or mental 
scars or where are they later on in the program. This goes into 
tracking a little bit that the IUPAT does, but one of the 
things that I was getting antsy in my seat over was we are 
creating a veterans' mentoring program for our veterans coming 
into our training centers. It is no different than our VFWs or 
American Legions.
    These veterans, now they are carrying whatever they had 
from their time in service, and they are starting this new 
career into whatever trade it may be, getting into a union, 
meeting new brothers and sisters within the union. They have 
concerns and issues, and we need to mentor them along into the 
family of the organization.
    But they also--what we are creating, and General President 
Rigmaiden is looking at this program. We have a mentoring 
program, but not for veterans at this point. Solid into a 
training program. But we want them to be able to sit and 
express issues that they had or frustrations that they might 
have had on a job site that might have just been ready to send 
them over an edge. So we are looking at that.
    Mr. Chairman, I do want to comment about the tracking. As 
these veterans come into the program and they make application, 
on their application it says apprentice. When they go through 
their training program and complete and become a journey 
worker, their status goes to journeyman. They receive their 
certificates from the Department of Labor of completion, and 
they have their certificate from the IUPAT, which is 
transferrable to any IUPAT craft within the IUPAT.
    So we know if they are being dropped. We know if they are 
being suspended. We can track it through our integrated 
management system through the IUPAT, which cycles up from our 
district councils. So this is really building--and our general 
president is very huge on requesting from me constantly about 
how many veterans are we hiring? Where are we with our veteran 
employment? Where are we with getting them through the system?
    So I just wanted to add to that, that under the direction 
of our general president, this is an issue that is very near 
and dear to him, because, again, we are bringing in new family 
members, and we want to make sure we are just not bringing them 
in and say, have a great life; bring them in and nurture them 
along throughout the process.
    Mr. Arrington. Will the gentlemen gentleman yield? I just 
want to say that is a--
    Mr. Takano. Of course, I will.
    Mr. Arrington. Thanks for bringing that up, because, again, 
I don't care what the program is or what the hearing is about. 
It seems to me that that becomes my biggest frustration, is 
that I don't have any instrumentation to guide this thing.
    And so the fact that you guys are doing it, as the union, 
what can I say? Great job. And I would expect that the same 
attention to those metrics are applied to all parties sitting 
at the table so that we can, again, ascertain what is working, 
what is not, and how we can turn the dials to improve it. That 
is all we want to do. That is all you want to do. But without 
information, it makes it really hard. So great job.
    Mr. Takano. Mr. Chairman, just briefly as I wrap up.
    Mr. Arrington. Sure.
    Mr. Takano. Thank you so much for this hearing. I share 
your concerns about the metrics and the follow-up.
    And both of you, both Charter and the IUPAT, are great 
exemplars of how you track and you take care of your 
apprentices. And, Dr. Wescott, I hope that makes you more 
excited about trying to get this going some more, because if 
the metrics are good, we should really be doing all we can to 
get more apprentices. And I think this opportunity really isn't 
as well known among our veterans as it ought to be.
    And, Mr. Chairman, I hope we can get together and figure 
out how, if it is funding a line item for more marketing, you 
know, I think there is a lot of value in getting people into 
the trades and getting people into tracks that aren't 
necessarily having to go to a 4-year university, at least not 
right away. And I think not only veterans, not only the veteran 
population, but our country is hungry for these kinds of 
opportunities.
    Now I yield back, Mr. Chairman.
    Mr. Arrington. I want to thank the gentleman for his 
comments, as well as Representative Correa, and our panelists 
for your time.
    Mr. Correa, last comments.
    Mr. Correa. Mr. Chairman, if I may have a couple of closing 
comments.
    I just wanted to reiterate again my thanks for your 
leadership on this issue, to our panelists for being here and 
doing the good work you do. And, Mr. Chairman, I just want to 
let you know that in my district, we do have a lot of veterans 
and they are not going to go to 4-year colleges. A lot of them 
just want to get that good-paying job to support their 
families. That is what this country owes them. I think through 
your leadership here, I think we can come up with some good 
common sense solutions to these challenges of giving our vets 
what they have earned, which is a good-paying job in this 
country. So look forward to continuing to work with you on 
these issues, sir.
    Mr. Arrington. I heartily agree with my colleagues. I am 
always a little nervous when I am getting so agreeable with 
these guys, but, you know, what can I say? Again, we want our 
veterans to succeed. There is a great need in this country and 
a gap in skills and a need for labor.
    And on this day when my colleagues and I on the other side 
of the aisle have been talking about making it easier for 
capital to flow efficiently to new investments and 
opportunities, to create higher wages through tax reform, and 
that is just one part of the productivity equation. The other 
is labor. And what better story than filling that labor need 
with our veterans, but they have to be trained and they have to 
have charter communications companies step up, and they have to 
have the leadership of the VA being vigilant to make it easy 
for charters and for the veterans. So there is not a doubt in 
my mind that every one of us here involved in this discussion 
wants that to happen.
    A lot of these ideas I notice in my short time here will 
come with the folks on the front lines, the folks on the panel. 
So please, again, bring those ideas to us and don't be bashful 
and, again, especially when it is a bright line that you have a 
legal barrier. And I know we will work together in a bipartisan 
way to solve problems here. That is what we are all here for.
    With that, I want to remind all Members that you have 5 
legislative days to revise and extend your remarks and include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered.
    If there is nothing further, this hearing is adjourned.

    [Whereupon, at 3:17 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

               Prepared Statement of Robert M. Worley II
    Good afternoon, Mr. Chairman, Ranking Member O'Rourke, and Members 
of the Subcommittee. I am pleased to be here today to discuss the 
Department of Veterans Affairs (VA) education benefits programs. My 
testimony will focus on VA's administration of apprenticeship training 
under the Post-9/11 GI Bill.
    The Post-9/11 GI Bill (Chapter 33) was enacted with the passage of 
Public Law (P.L.) 110-252, effective August 1, 2009. Chapter 33 
provides eligible Veterans, Servicemembers, dependents, and survivors 
with educational assistance, generally in the form of tuition and fees, 
monthly housing allowance, and a stipend for books-and-supplies - all 
to assist these men and women in reaching their educational or 
vocational goals. P.L. 111-377, signed into law on January 4, 2011, 
amended the Post-9/11 GI Bill and expanded the benefits and access to 
programs available to eligible participants. The Post-9/11 GI Bill is 
the most utilized of VA's educational assistance programs.

Background on VA Apprenticeship Programs

    Apprenticeship programs are available for Veterans using their VA 
education benefits, including the Post-9/11 GI Bill. These programs 
allow Veterans to learn a trade or skill through training, while 
simultaneously earning a paycheck. A Veteran generally enters into a 
training contract for a specific period with an employer, and at the 
end of the training period the Veteran typically earns an 
apprenticeship program completion certificate and job certifications, 
in addition to ``journeyworker'' status.
    Veterans pursuing apprenticeship training under the Post-9/11 GI 
Bill may also receive a monthly housing allowance in addition to their 
apprenticeship wages. The housing allowance is based on a percentage of 
the Department of Defense (DoD) Basic Allowance for Housing (BAH) for 
an E-5 with dependents (based on the location of the employer), payable 
at the rate of 100 percent during the first six months; 80 percent 
during the second six months; 60 percent during the third six months; 
40 percent during the fourth six months; and 20 percent during any 
remaining months of training. Participants may also receive up to $83 
per month for books and supplies.

Approval and Participation in VA Apprenticeship Programs

    The law provides that VA may pay educational assistance to eligible 
Veterans and other individuals participating in approved training 
programs. Department of Labor (DOL) Registered Apprenticeships are 
``deemed approved,'' as are those approved by DOL or State 
Apprenticeship Agencies recognized by DOL, subject to the requirements 
in Section 3672(b)(2)(A)(iii) of Title 38 U.S.C., and unregistered 
apprenticeship programs may be approved as long as the criteria in 
section 3687 of title 38 U.S.C. are met. State Approving Agencies 
(SAAs) overseeing education and training programs for Veterans are 
responsible for approving most non-Federal apprenticeship programs in 
their respective states. Similarly, VA has authority to approve 
apprenticeship programs offered by Federal agencies, including DOL 
registered programs offered in multiple states by carriers directly 
engaged in interstate commerce.

Partnerships

    VA works with SAAs to streamline and standardize the approval 
process for DOL Registered Apprenticeship programs. SAAs must utilize 
VA's standard application process for employers seeking GI Bill 
approval of DOL Registered Apprenticeship programs. VA also works 
closely with DOL staff to ensure Registered Apprenticeship sponsors 
understand the approval process for GI Bill benefits. This includes 
participating in teleconferences with employers, providing information 
as necessary, and sharing SAA contact information. In November 2015, VA 
developed and published an informational guide for employers offering, 
or considering offering, On-the-Job (OJT) or Apprenticeship training to 
Veterans and their beneficiaries. The guide can be found at https://
www.benefits.va.gov/GIBILL/docs/job--aids/OJT--APPInfoGuide.pdf. A 
second edition was published in July 2017.
    VA continues to work with the National Association of State 
Approving Agencies (NASAA) to ensure SAAs are aware of participating 
employers that have received national approval as well as any pending 
approval concerns. There are some challenges in the approval process 
for employers because training, at times, is taking place in numerous 
states, and VA's regulations require that the State Approving Agency 
where the training takes place may approve the course for VA training.
    To promote outreach to employers that had received registration and 
approval of their apprenticeship programs from DOL, VA requested that 
SAAs contact those employers in their states to ensure that the 
employers are aware of the advantages of GI Bill program approval for 
Veterans.

Outreach

    VA promotes available apprenticeship opportunities through the use 
of various platforms and strategies. For example, VA leverages the 
Community Veteran Engagement Boards, and Office of Economic Opportunity 
personnel to engage in nation-wide awareness of the economic impact of 
apprenticeships. In addition to traditional approaches, VA is utilizing 
social media outlets to provide greater visibility and enhance the 
awareness of these programs.

Conclusion

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to any questions that you or the other Members of the Subcommittee may 
have.

                                 <F-dash>
              Prepared Statement of Dr. Joseph W. Wescott
Introduction

    Chairman Arrington, Ranking Member O'Rourke and members of the 
Subcommittee on Economic Opportunity, I am pleased to appear before you 
today on behalf of the 50 member state agencies of the National 
Association of State Approving Agencies (NASAA) and appreciate the 
opportunity to provide comments on ``How to Improve Access to GI Bill 
Approved Apprenticeship Programs and How these Programs Benefit 
Veterans.'' We particularly look forward to discussing with you how 
State Approving Agencies (SAAs) interact with the Department of 
Veterans Affairs (VA) and Department of Labor (DOL) as well as 
apprenticeship providers, to approve and administer Programs. We also 
wish to discuss ways in which we, and the VA, could better inform 
eligible men and women about the advantages of using their GI Bill 
benefits in an approved apprenticeship program. Finally, we will 
suggest ways to remove hurdles and how we can work together with our 
partners and Congress to improve this important program, while better 
ensuring meaningful employment through apprenticeship programs for 
veterans.
    For hundreds of years, Apprenticeship (APP) and On-the Job (OJT) 
type training has been an important means of educating family members 
and new employees. Our nation has a long history of valuing ``learning 
by doing'' that stretches back to young Benjamin Franklin in the 
colonial era and includes Booker T. Washington's efforts at then 
Tuskegee Institute in the last century. The impact of that training on 
our people's lives and upon our nation's history needs no further 
explanation. Such impact continues today in the successful transition 
of our military service members to civilian life. In fact, for those of 
us who served, OJT or ``hands on'' training played a critical role in 
our preparation as soldiers. One could read and discuss the assembly 
and disassembly of the M-16 A1 Rifle, but until you actually performed 
it, for most of us, it remained a mystery. Hence, OJT and 
Apprenticeship are methods of training that our military population is 
well acquainted with, and for many of them, the type of instruction 
from which they can best benefit.
    Mr. Chairman, we heartily agree with you that, working with our VA 
and DOL partners, we can improve in real and substantive ways the 
manner we approve and administer apprenticeship programs. Likewise, we 
know there are ways that we can better inform eligible men and women 
about the apprenticeship and On-The-Job training programs. We will 
address outreach and information sharing first.

Informing our Veterans

    We strongly agree that outreach efforts need to be improved and we 
still believe that State Approving Agencies can provide a major part of 
that effort. SAAs are already a part of the process in that we approve 
and oversee all non-federal OJT and apprenticeship programs. With an 
adjustment in our contractual requirements, we could provide a more 
robust outreach to potential employers of veterans and their 
dependents. For example, from Fiscal Year 2008 until Fiscal Year 2011, 
SAAs, working with our VA partners, increased the number of approved 
Apprenticeship and OJT facilities with at least one active veteran or 
eligible dependent from 4,471 to 5,285. However, since then, due to our 
shared focus on oversight, particularly compliance surveys, the number 
of approved active facilities decreased. In FY 2015, there were only 
3,551, or 1,700 less than Fiscal Year 2011. And in FY2016, the number 
of facilities was only 4,221, or 1,064 less than the high point of 
2011. We believe the reason for this decrease is that in the past 
several years, we and our VA partners have been tasked with focusing 
heavily on oversight of institutions. This valuable work has been 
accomplished somewhat at the expense of our ability to provide outreach 
for the OJT and Apprenticeship Program. As you can see, during a time 
of unprecedented growth in the utilization of GI Bill benefits and a 
marked increase in the interest of training providers in offering 
approved programs, our ability to approve programs, supervise 
facilities, and conduct meaningful outreach has been constrained by 
limited resources and our joint focus on oversight. While we are deeply 
appreciative of this Congress, and particularly the leadership in this 
Committee, in providing additional funding for SAAs, it is important 
that we now renew our focus on outreach to our nation's veterans (and 
potential employers) about this unique program.
    In the past several years, despite limited time and resources, SAAs 
have been creative and innovative in attempting to reach employers and 
veterans with the message that there is another path to employment for 
them other than college. And one that could prove equally rewarding. 
For example, the Missouri SAA continues to produce and distribute a CD, 
aptly titled, ``The GI Bill-It's Not Just for College.'' This 8 minute 
CD reflects the perspective of the veteran, the employer, the VA and 
the SAA and it is used by many National Guard units, employers and SAAs 
across the nation. Prior to the recent restructuring of the Transition 
Assistance Program, this CD was a staple at many TAP briefings in the 
Central and Eastern regions. In addition, like many SAAs, Missouri 
publishes a monthly newsletter. And Missouri is not alone. Illinois, 
which had 357 approved and active apprenticeship and OJT facilities 
last year, has a vigorous outreach program involving add-a-stop visits 
to employers, along with presenting to statewide apprenticeship 
meetings and to every law enforcement and correctional officer academy 
class in Illinois. The Illinois SAA is also actively involved in 
Illinois Joining Forces, a consortium of employers, not-for-profit 
organizations, and state agencies interested in ensuring veterans make 
a successful transition from the military to the civilian world. 
Another example is Ohio. The Ohio SAA performs outreach by sitting as 
an advisor on their State Apprenticeship Council and by providing 
briefings during the Ohio State Apprenticeship Annual Conference.
    Further, the Washington SAA is an active participant in the 
Veterans Resource Employment Group (or VERG), aimed at promoting 
employment of veterans and program approval of Apprenticeships and OJT 
programs in State Government along with regular participation at the 
Washington Department of Labor and Industry Apprenticeship Council 
Meetings. As a result of these connections, several new innovative 
registered Apprenticeship programs have been recently approved in 
Washington State. APPRENTI (based in Seattle)- which provides training 
in the high demand (and high paying) careers of Database Administrator, 
IT Support Professional, Network Security Administrator, and Software 
Developer-was approved in February 2017 and recently enrolled its first 
veteran apprentice. As stated on APPRENTI's website: ``Your paid 
training will be specifically tailored to you and a high-tech position 
will be waiting for you when you finish. If you thought your dream job 
was out of reach, think again.'' We need to get the word out to 
transitioning veterans about these new high tech apprenticeships. In a 
different, but equally innovative vein, the Washington SAA has also 
recently approved Medical and Dental Assistant Apprenticeships for the 
Washington Association of Community & Migrant Health Centers. These 
non-traditional apprenticeships are aimed at serving culturally diverse 
populations in rural and urban communities with limited access to 
healthcare. This Registered Apprenticeship program provides a paid 
training alternative to a college certification program.
    Meanwhile, in Arizona, the SAA Director holds a seat on the Western 
Apprenticeship Coordinators Association of Arizona Council (WACA). 
Through the WACA Council the SAA provides guidance on the SAA approval 
and certification process to the approved Apprenticeship programs and 
seeks feedback on problems institutions are having with the VA 
certification process. The Arizona SAA also solicits any non-approved 
Apprenticeship programs by meeting directly with employers and 
discussing the benefits of approval. All state legislative changes for 
Arizona's Apprenticeship programs are shared and discussed at WACA and 
the Steering Committee meeting. Already this year, this SAA has 
followed up on and issued approvals for at least 30 new entities to 
date.
    We also are proud of the recent approval actions with national 
employers-such as General Dynamics, Union Pacific and Spectrum-that 
have been initiated by member SAAs that affect many states. NASAA is 
excited about those opportunities, but, Mr. Chairman, we would suggest 
that VA conduct national outreach efforts, while the SAAs should remain 
focused on state and local outreach efforts, which best meet the needs 
of their particular state. We would encourage the VA to place more 
emphasis on their website regarding the use of the GI Bill for APP/OJT 
opportunities and we can do likewise on our State SAA websites. 
Additionally, we should continue to work closely with State Departments 
of Veterans Affairs and other local agencies or institutions. In North 
Carolina, recently I met with the President of our community college 
system to talk about how we might partner with them to promote 
apprenticeships affiliated with the community colleges. Further, we 
would suggest that outreach efforts by the VA and SAAs should focus on 
all current chapters of the GI Bill. In several states, such as 
Illinois, more veterans in APP/OJT programs ostensibly use other 
chapters such as Chapter 30 and 1606 rather than just Chapter 33, the 
Post 9/11 GI Bill. In certain instances, Chapter 30 provides a higher 
monthly benefit payment than the monthly housing allowance and books 
and supplies stipend provided under Chapter 33. It is important to 
understand that what makes Chapter 33 more attractive at an IHL-the 
fact that the veteran's institution may receive payments for tuition 
and fees-is not a factor with OJT and Apprenticeship programs.
    We would like to be able to conduct more outreach and technical 
assistance visits, and indeed we have begun doing some. Earlier, in 
discussing the Illinois SAA's outreach efforts, I used the phrase 
``Add-A-Stop.'' The phrase ``Add-A-Stop'' refers to a practice used by 
SAAs for over 15 years. An ``Add-A-Stop'' is an extra stop at a 
potential APP/OJT facility while traveling to a currently approved 
education or training facility for approval or oversight purposes. This 
practice maximizes efficiency in travel costs while increasing the VA/
SAA footprint for the APP/OJT program.
    With an appropriate shift in our focus, SAAs would like to be able 
to visit more active On-the-Job or Apprenticeship training programs on 
a regular basis. During these visits, we would be able to discuss the 
approval of the program, the goals of the program, and assist programs 
with VA paperwork issues and veteran payment issues. We also could 
speak to veterans enrolled in these programs, providing them with the 
opportunity to tell us how their training is going or if they are 
having any issues with payments. Ultimately, such visits strengthen 
outreach activities in the field of On-the-Job and Apprenticeship 
training programs, as these visits provide employers and veterans with 
the confidence to recommend this program to other employers and 
veterans, as well as provide us with information about companion 
industries or companies that might also be interested in hearing more 
about the Apprenticeship/OJT programs.
    We must point out, however, that current law limits the ability of 
SAAs to be reimbursed under their contract for outreach efforts unless 
the effort can be linked to a travel expense. Standard outreach and 
marketing strategies such as news media advertising and social media 
advertising cannot be reimbursed. NASAA recommends 38 USC 3674 be 
amended to add an additional category of reimbursement for outreach and 
marketing.

Administrative Challenges

    NASAA has long sought the automation of the APP/OJT process and 
claims processing. We certainly understand and empathize with the 
challenges faced by our VA partners in the automation arena, but it is 
truly time to replace the fax machine and the US Postal Service as the 
means of delivering claim forms. Some headway has been made with the 
recent addition of apprenticeship and OJT enrollment certifications to 
the VA ONCE online system, but it is still impossible for employers to 
submit monthly certifications electronically. Complete automation would 
not only provide veterans with a more timely payment of benefits, but 
would provide VA and SAAs with the ability to accurately track how many 
veterans are enrolled in approved APP/OJT programs and how many active 
APP/OJT programs (a program where a veteran has received a payment) are 
in the system. Two years ago, a GAO report stated that there were 2700 
employers and apprenticeship sponsors approved to train Post 9/11 GI 
Bill veterans. But during this same time frame, numbers submitted by 
SAAs and confirmed by VA indicated that there were roughly over 3500 
active approved facilities. This SAA/VA number supports our earlier 
statement that many veterans enrolled in APP/OJT programs use other 
chapters of the GI Bill, not just the Post 9/11 GI Bill. Moreover, the 
VA frequently contacts SAAs to determine the name of a veteran in an 
APP/OJT program, as their manual systems for tracking veterans are so 
cumbersome to search. In the end, both of these examples illustrate the 
challenges faced by the VA given their present level of automation and 
their continued need for further automation of APP/OJT claims 
processing.
    NASAA recommends that until the VA is able to establish a full-
fledged electronic system for APP/OJT processing and payments, the VA 
should consider reducing administrative burdens on employers with 
approved APP/OJT programs by allowing them to certify all veterans 
enrolled in the GI Bill program on one enrollment form, instead of 
separate forms for each veteran. The use of such a form would provide 
employers with immediate relief from the administrative burdens of the 
APP/OJT claims processing system. This document should be a protected 
form requiring only the certifying official's signature. The current 
form requires both the certifying official and veteran's signature, 
which has resulted in veterans acquiring the form, and in a few cases 
inappropriately self-certifying themselves for benefits. Moreover, the 
use of such a form would reduce the amount of paperwork required to be 
processed by the VA and mitigate potential fraud. NASAA recommends 
eliminating the statutory requirement for two signatures on monthly 
time sheets found in 38 U.S.C. section 3680(c). A reliable and valid 
automation system remains critical to the eventual improvement of this 
program.

Pending Legislation and Recommended Innovation

    NASAA supports the efforts of Congress to modify existing law to 
clarify the authority of State Approving Agencies to approve registered 
apprenticeship programs that are based or headquartered in their 
respective state with job sites in multiple states. This model already 
exists within our Joint Apprenticeship and Training Committee (JATCs) 
as well as in the manner we approve distance education institutions, 
and the proposed legislation in Congress now simply represents a common 
sense extension of the model. NASAA has worked closely with Congressman 
Ro Khanna from California's 17th congressional district and we are 
excited about the potential of this new legislation to remove hurdles 
facing national apprenticeships, while continuing to provide SAA 
oversight and protections for veterans enrolled in these training 
programs.
    NASAA recommends that Congress provide parity between public and 
private sector employees by eliminating wage progression requirement 
for OJT programs that are 24 months or less.
    NASAA further recommends that language be added to 38 U.S.C. 
section 3680A(4) to exempt the related training portion of an OJT or 
apprenticeship program. Many of our currently approved training 
programs utilize high-quality, industry-recognized related training 
that may meet the strict definition of independent study and would need 
to be disapproved. Clearly, this was not the intent of Congress and we 
seek their assistance in clarifying this section.
    NASAA recommends that Congress clarify that a starting wage equal 
or greater than a journeyworker wage does not disqualify someone from 
participating in the program. Indeed, the trainee does not have a 
marketable skill until the training is completed, regardless of amount 
of the hourly wage. We believe it was the intent of Congress to provide 
this benefit throughout the training program, as benefits remain 
available to use, until that training has concluded.
    We would strongly recommend that the VA, as they have done in other 
areas, partner with NASAA in the development of better outreach and a 
refocusing of our joint efforts to reach veterans with the message of 
the value of these programs. This would certainly be an opportunity for 
our collaborative Joint Advisory Committee, comprised of 
representatives from both VA and NASAA, to undertake and oversee this 
project. Once again, NASAA stands ready to implement a jointly 
administered pilot project as we have in the Mercedes Benz program. 
Such efforts would provide all stakeholders with solid data to see if 
the anecdotal evidence that already exists is true. That anecdotal 
evidence suggests that when compared to other forms of education and 
training, those who engage in OJT and Apprenticeship programs have 
higher completion rates, higher placement rates, and higher retention 
rates. All at a fraction of the cost associated with many four-year 
degrees. We also believe that programs such as the Mercedes Benz pilot 
program are beneficial to our veterans and communities and we wish to 
point out that it is imperative that the approved standards for these 
programs meet all applicable requirements of Title 29 U.S.C. and 29 
CFR, in particular 29.2 Definitions and 29.5 Standards of 
Apprenticeship.

Conclusion

    Mr. Chairman, the Apprenticeship (and OJT) programs under the 
various chapters of the GI Bill provide a tremendous opportunity to put 
our Nation's veterans back to work quickly in meaningful and rewarding 
careers that are needed in our economy. We applaud the efforts of this 
Committee, and our VA partners and stakeholders to improve 
administrative capabilities, overcome challenges to innovation, and to 
increase outreach. We look forward to collaborating and partnering with 
the VA in support of many of these recommendations.
    Today, fifty SAAs in 48 states and the territory of Puerto Rico, 
composed of approximately 175 professional and support personnel, are 
supervising over 14,494 active facilities with 115,000 programs 
(including over 4,221 APP/OJT programs). We remain strongly committed 
to working closely with our VA partners, VSO stakeholders, and 
education and training facilities to ensure that veterans have access 
to quality training programs delivered in an appropriate manner by 
reputable employers. For we all share one purpose, a better future for 
our veterans and their dependents. Mr. Chairman, I pledge to you that 
we will not fail in our critical mission and in our commitment to 
safeguard the public trust, to protect the GI Bill and to defend the 
future of those who have so nobly defended us. I thank you again for 
this opportunity and I look forward to answering any questions that you 
or committee members may have.

                                 <F-dash>
                  Prepared Statement of Paul Marchand
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke and 
distinguished members of the subcommittee, I am Paul Marchand, 
Executive Vice President and Chief Human Resources Officer at Charter 
Communications.
    Thank you for inviting me here this morning to discuss a topic that 
is vital, not just to Charter, but to the country: improving economic 
opportunities for our brave men and women through GI Bill-approved 
apprenticeship programs.
    We applaud the committee's history of bipartisanship and commitment 
to improving the lives of veterans, and we are proud to give back to 
people who have done so much for this country.
    Let me begin with a little about who we are.
    Charter is America's fastest growing TV, internet and voice 
company. We're proud to serve more than 26 million customers in 41 
states.
    We offer the same, simple, straightforward, high-value products 
using a consistent and uniform approach to over 50 million homes and 
businesses.
    We serve diverse customers in big cities and rural communities in 
places like Texas, Florida, Ohio California and Indiana.
    In total, we have over 92,000 employees and, since 2012, we've 
hired more than 19,000 employees in the U.S. We are committed to hiring 
20,000 more by 2020, primarily by ending our reliance on offshore call 
centers.
    Every day, our highly-skilled, diverse and U.S.-based workforce 
helps us deliver better products and better services across our 
footprint to our customers.
    An example of this is in McAllen, Texas, where we just opened a 
new,-state-of-the-art, fully bilingual Spanish-English language call 
center designed to serve our growing number of Spanish speaking 
customers. When it is fully staffed at the end of next year, we will 
have 600 employees there providing support for billing and TV and 
Internet services for customers who prefer to speak to us in Spanish. 
Previously calls from these customers were handled at call centers 
located outside the U.S.
    We are proud to say that veterans are a critical group in our 
workforce.
    As a result of active recruitment and expanded outreach, Charter 
employs nearly 11,900 veterans - 13% of our total workforce. In fact, 
Charter's 13% veteran workforce is essentially double the government 
guideline of 7% for veteran hiring.
    This year alone - from January to August - we've hired 
approximately 4,000 veterans and we are committed to increasing our 
overall veteran hiring by 5% over the next three years.
    Our efforts to increase veteran hiring are greatly enhanced by the 
advice and council of Dr. Clifford Stanley. Cliff is a retired general 
of the Marine Corps who formerly served as the Under Secretary of 
Defense for Personnel and Readiness. We are extremely fortunate to have 
him as a member of Charter's External Diversity and Inclusion Council.
    Veterans' skills translate well to our company
    Our veterans are highly skilled problem solvers.
    They bring efficiency and a mission-oriented mindset that is 
effective across all business units and in varying levels of the 
company including executive leadership.
    These are veterans like Jermaine Jackson who served in the U.S. 
Army, was hired as a technician, and enrolled in our Broadband 
Technician Apprenticeship Program. Since joining our team, Jermaine has 
been promoted to our highest level of residential field technician.
    Darrel Hegar graduated high school and enlisted in the US Air Force 
completing five years of service in the military as a Sergeant during 
Operation Desert Storm. Following his military career, he started a 
computer company with the skills he learned in the Air Force. He 
subsequently joined the former Time Warner Cable in 2015 as VP of 
Marketing and is now, after earning two promotions, the Regional Vice 
President of the Carolinas for Charter Communications Field Operations 
leading a team of over 3,000 employees across 3 states.
    Employees like Jermaine and Darrel make us a better, stronger 
company. And, we believe, it's even better for the people we serve.
    That is why we have several programs and partnerships devoted to 
attracting, hiring and retaining veterans.

Recruit

    First, we work hard to recruit veterans by going to where service 
members start their transition out of military service and into 
civilian life- on military bases and in the communities in which they 
are located, which often times are communities we serve.
    We understand that the transition to civilian life is just that-a 
transition.
    It is not something you start the day of your discharge from active 
duty. For us to be successful in our recruitment, it must start before 
that.
    That's why Charter joined a new Career Resource Center that opened 
this July at Fort Bragg in North Carolina.
    The center - located on the base - helps companies like ours 
recruit, train and hire service members who are finishing their 
military service. Through this partnership with Ft. Bragg, we provide 4 
weeks of training to active duty men and women who are in the final 
stage of their military service. This program allows Charter to begin a 
relationship with men and women while they are still on active duty. It 
provides them a taste of what it is like to work as a broadband 
technician and is the start of a pipeline into our Broadband Technician 
Apprenticeship Program and an eventual career at Charter. We're excited 
the first class will begin on November 6th.
    Because our relationship at Ft. Bragg is under the Career Skills 
Program we can also offer job shadowing, internships and skills 
training. This program also allows military personnel to ``test drive'' 
new jobs and helps us to recruit service men and women who are both 
qualified and interested.
    We are also identifying and recruiting talented soon-to-be veterans 
through the U.S. Chamber of Commerce's Hiring Our Heroes Corporate 
Fellowship Program. Service members who are making the transition to 
civilian life gain hands-on experience working in the private sector, 
as well as management training, in a 12-week fellowship. Most 
participants are senior enlisted service members or junior officers and 
85% of Fellows have a Bachelor's Degree. Working with Supporting Base, 
Ft. Carson Colorado, we recently welcomed our first Fellows into our 
Technology Services Group in Denver, a group led by Group Vice 
President, Marti Moore, a former member of the U.S. Air Force and 
military champion herself.
    We look forward to offering the Hiring Our Heroes Corporate 
Fellowship Program in more Charter service areas in partnership with 
Ft. Carson, Camp Pendleton, Ft. Bliss, Ft. Hood and Joint Base San 
Antonio.
    We view these recruiting initiatives as a success, and we are 
interested in working with other bases to set up similar partnerships. 
By meeting our soon-to-be-veterans where they are, we can better engage 
them and help put them on a path to success.

Train

    Importantly, we don't just want to hire veterans, we want to help 
them build on the technical skills they gained from the military and 
begin a second career at Charter.
    This is where our Broadband Technician Apprenticeship Program, a 
key focus of this hearing, comes in.
    This highly regarded program certified by the U.S. Department of 
Labor (USDOL) provides newly hired broadband installer technicians the 
opportunity to receive Apprenticeship Certification.
    Enrollees in the Broadband Technician Apprenticeship Program 
complete thousands of hours of on-the-job training and an extensive 
classroom curriculum over four years.
    Qualified veterans who were discharged in the last 10 years can 
secure GI Bill Benefits by completing the program's qualified 
curriculum and on-the-job training, putting them in position to 
possibly earn tax-free money in addition to their Charter paycheck.
    Today, over 1,000 technicians are currently enrolled in five states 
that are home to large military bases: Missouri, Nebraska, North 
Carolina, South Carolina and Texas.
    One graduate of the program Fabian Luna was hired as an 
installation technician in 2006 just out of the United States Army. A 
graduate of the apprenticeship program, Fabian has been promoted five 
times and currently works as a Field Technician Supervisor in 
Morrisville, NC.
    Scott Feltmeyer, who also completed the program and now works at 
Charter as a Spectrum Business Technician, is still serving our country 
in the Illinois National Guard. Scott comes from a military family and 
he believes the same traits that serve him well in the military - 
integrity, a can-do attitude, and the ability to operate independently 
or as part of a team,- translate well to Charter's workforce. He has 
been with Charter for five years and appreciates that the company 
enables him to continue to serve his country.
    The Broadband Technician Apprenticeship Program has been so 
successful in producing the highly skilled broadband techs that provide 
technical services in our customers' homes and businesses that we are 
working with the U.S. Department of Labor to expand it into a national 
program. Last May at our technical training center in St. Ann, MO, we 
were joined by Governor Eric Greitens, a decorated veteran and founder 
of the veterans' non-profit organization The Mission Continues, along 
with Congresswoman Ann Wagner, to announce our intent to offer the 
program across our 41 state footprint.
    Our apprenticeship program leads to good paying jobs with generous 
benefits, and these technicians become valued and essential members of 
our workforce.

Retain

    Once we recruit and train our veteran employees, we work hard to 
retain them.
    Our goal here is simple: create the best possible working 
environment for our employees by offering competitive pay, robust 
medical and retirement benefits with opportunities for continued career 
advancement
    Charter's veteran community is a tightly knit group-and we're proud 
to have 14 company sponsored employee network chapters with over 600 
members.
    This important employee resource group, known as VETNET, is made up 
of veterans, family members of veterans, and other employees interested 
in veteran and military-related issues. It collaborates with Charter's 
senior leadership to provide mentoring for the growth and development 
of its members and offers employees opportunities to do work in support 
of veterans and their families.
    For Charter, it goes a long way towards ensuring open communication 
between our veteran employees and the company.
    Finally, we recognize one of the biggest challenges veterans can 
face transitioning to civilian life is the relocation of family. Next 
week, Charter will officially join the Department of Defense's Military 
Spouse Employment Partnership (MSEP). This valuable partnership will 
facilitate recruitment of this skilled, diverse and unique group of 
professional military spouses. We're going to be participating in 
recruitment activities with MSEP across our footprint. Through our work 
with groups like the Partnership for Youth Success and Recruit 
Military, we are excited about the recruiting opportunities this new 
partnership will bring.

Conclusion

    According to the Veterans Administration, by 2020 there will be 
more than 3.4 million veterans who served in post 9/11 conflicts, and 
1.8 million of these veterans will be under the age of 34.
    In the last few years, we've made a lot of progress making sure 
these veterans find jobs. According to the Department of Labor, in 
August, veteran unemployment was at 3.7%, the lowest it has been since 
2007.
    But this is no time for us to be complacent, as too many veterans 
continue to face barriers to finding steady well-paying jobs with 
benefits.
    Moving forward, we have a clear sense of what needs to happen to 
reach our commitment to hire 20,000 additional workers by 2020, with 
veterans becoming a growing percentage of our workforce. We will do 
this by:

    <bullet>  Growing our presence on bases to ensure we're reaching 
veterans before they leave active duty
    <bullet>  Expanding partnerships with key military and veterans 
organizations, like the VFW and Hiring Our Heroes, among many others
    <bullet>  Ensuring that when veterans are hired, it is not just a 
job, but they are retained and given opportunities to grow and develop 
careers
    <bullet>  And lastly, helping to improve the timelines and 
harmonization with the Department of Labor and other partnering 
agencies

    Our veterans served us at home and abroad at great sacrifice to 
themselves and their families. Today, thousands of men and women are 
still in harm's way protecting us.
    We owe it to them to make sure that when they leave active duty, 
they have careers that they can continue to be proud of and that can 
support their families with good benefits and real pathways to 
advancement.
    With more men and women leaving the military every day, we don't 
have a moment to lose.
    I thank the committee for your time and look forward to answering 
any questions you have.

                                 <F-dash>
                    Prepared Statement of Dan Penski
    Chairman Arrington and Ranking Member Rep. O'Rourke, thank you for 
the chance to share our perspective on the many great opportunities for 
veterans in the construction and building trades. I am grateful to be 
with you today at the Economic Opportunity Subcommittee of the House 
Veterans Affairs Committee to discuss a timely and important topic. My 
name is Dan Penski. I serve as Special Assistant to the General 
President of the International Union of Painters and Allied Trades, Mr. 
Kenneth Rigmaiden. He sends his apologies, as he was unable to sit 
before you today.
    Founded in 1887, the International Union of Painters and Allied 
Trades (IUPAT) represents men and women in the United States and Canada 
who work in the Finishing Trades. Our members are the highly skilled 
men and women who painted the Capitol Dome and installed the glass 
exterior of Apple's new headquarters. We do the gritty work of blasting 
failing lead paint off bridges and water tanks and re-coating those 
structures with modern finishes that will extend their useful life. Our 
members also do highly skilled new construction, installing glass 
exteriors that take advantage of modern materials that make possible 
the most energy efficient structures ever built. And, they apply the 
finishing touches, paint, wall coverings and flooring of all types, 
that make interior spaces both beautiful and pleasant places to work 
and live.
    In our industry our work is termed as the Finishing Trades - 
Industrial & Commercial Painting, Drywall Finishing, Glazing & Glass 
Work, Sign & Display and Floor Covering Installation, and many more 
successful careers in the construction industry. Leaders in our 
organization work to make sure our signatory contractor-employers have 
the skilled workforce that they need to continue building and 
maintaining our communities and infrastructure.
    To maintain a leading edge in our industry, we utilize our 
Finishing Trades Institute (FTI) which is the education fund associated 
with the International Union of Painters and Allied Trades and the 
Finishing Contractors Association, the association of signatory 
employers. The FTI's core purpose is to develop and expand a qualified 
and competitive workforce for the finishing trades industries and 
oversee the apprenticeship-training program where those who wish to 
enter our trades learn their craft. The FTI not only provides the 
necessary skills to do the job right the first time but also provides 
the training to do it safely.
    I could not speak about the IUPAT FTI without discussing our 
apprentices. Apprenticeship programs provide an affordable education 
that does not leave its participants with one penny of debt. To the 
contrary, our apprenticeship programs are linked to jobs in the private 
construction industry that earn a living wage while learning the skills 
that will create a lifetime of opportunity. Some folks might not want 
to go to college so they look for a job outside of the normal college-
to-job pipeline. We see jobs in the trades as an Option A rather than 
Option B career paths that pays family-sustaining wages without what 
could be a four-year financial slump.
    As practitioners of the construction trades, we must consider that 
the future of our industry is rooted in core skills but assisted by 
technology; our apprenticeship programs are already working to stay 
ahead of the technology curve by providing state of the art training 
facilities are more.
    Pathways to apprenticeship programs are critical to building the 
workforce of the future, especially at a time when many in the industry 
are using terms such as ``Labor Shortage''. If the U.S. Government is 
serious about creating jobs in the private sector, then it must provide 
training that leads to high-wage jobs such as those in the trades by 
its using purchasing power to drive apprenticeship utilization.
    Furthermore, a portion of the General President's work portfolio is 
to carry out outreach to Veterans, whether that be nine volunteers from 
IUPAT District Council 57 painting recreation and common areas at a 
homeless shelter in the Pittsburgh area that houses support services 
for homeless veterans or educating vets on the job opportunities in the 
trades. I spend my time assisting the General President by working to 
see that Veterans consistently have across the board access to private 
industry jobs in the finishing trades, creating a cycle of 
sustainability and respect for the service members transitioning back 
into our society as productive citizens and drivers of our economy.

Overview of IUPAT and the North American Building Trades Apprenticeship 
    Model

    The IUPAT offers transitioning Vets our Painters and Allied Trades 
Veterans Program. Also known as PAT-VP, this program aims to assist 
transitioning veterans from military service to civilian careers in the 
finishing trades industry. Those Vets have been trained by the best and 
proudly served our country. Now, the IUPAT stands ready to advance 
their skills by offering a new career in the Finishing Trades through 
apprenticeship learning and on the job training.
    The IUPAT operates 107 multi-craft training centers throughout the 
United States and Canada. IUPAT, however, is not unique. Our sister 
unions in North America's Building Trades Unions (NABTU) also operate 
similar programs for the craft workers they represent. NABTU unions and 
their contractor partners operate more than 1,600 training centers in 
the United States.
    Indeed, nearly two-thirds of all registered apprentices in the 
United States work in the construction industry. Among construction 
apprentices, roughly 75% are enrolled in union-sponsored apprenticeship 
programs. Every year, building trades union members and their signatory 
contractors direct over $1 billion in private investments towards this 
educational system. When wages and benefits paid to apprentices are 
factored in, the annual investment exceeds $11 billion. To put this 
investment in perspective, if the Building Trades training system, 
which includes both apprentice-level and journeyman-level training, 
were a degree-granting college or university, it would be the largest 
degree-granting college or university in the United States - over 5 
times larger than Arizona State University.

Helmets to Hardhats:

    Helmets to Hardhats is a national, nonprofit program that connects 
National Guard, Reserve, retired and transitioning active-duty military 
service members with skilled training and quality career opportunities 
in the construction industry. The program is designed to help military 
service members successfully transition back into civilian life by 
offering them the means to secure a quality career in the construction 
industry.
    Most career opportunities offered by the program are connected to 
federally approved apprenticeship training programs. Such training is 
provided by the trade organizations themselves at no cost to the 
veteran. No prior experience is needed; in fact, most successful 
placements start with virtually no experience in their chosen field. 
All participating trade organizations conduct three to five-year earn-
while-you-learn apprenticeship training programs that teach service 
members everything they need to know to become a construction industry 
professional with a specialization in a particular craft. And, because 
these apprenticeship programs are regulated and approved at both 
federal and state levels, veterans can utilize their Montgomery G.I. 
Bill benefits to supplement their income while they are learning 
valuable skills and on the job training.
    In 2007, Helmets to Hardhats supplemented its existing program with 
a disabled American veteran program known as the ``Wounded Warrior'' 
program, which serves to connect disabled veterans with employment 
opportunities in the construction industry and the careers that support 
construction.
    Even through the economic slump in the construction industry, 
Helmets to Hardhats has placed 25,000 veterans into registered 
apprenticeship programs over the last 10 years. In 2016, the IUPAT 
alone brought in 144 veterans from the Helmets to Hardhats program. The 
IUPAT has made a decision to be more proactive and 3 years ago started 
our own pre-transition, pre-apprenticeship program to train, place and 
get employment for transitioning service members.

Painters and Allied Trades Veteran Program:

    The IUPAT Veterans Program has initially focused on the industrial 
paint trade and glazing trade and is actively working towards providing 
this program to the other trades the IUPAT represents. These trades 
include commercial and residential painters, industrial/bridge 
painters, drywall finishers, wall coverers, glaziers, glass workers, 
floor coverers, trade show workers and sign craft workers.
    The IUPAT works together with military base educational centers to 
provide career guidance on the PAT-VP program. The IUPAT attends 
regular job fairs and utilizes the existing on and off base networks to 
recruit new participants. Our objective is to cast as large a net as 
necessary to meet the need for skilled industrial applications that are 
being called for by the FCA contractors and the industry.
    Potential applicants are screened through a one-on-one 
consultation. These consultations review the applicants' Armed Services 
Vocational Aptitude Battery (ASVAB) which measures a range of aptitudes 
in verbal, math, technical and spatial domains as well as initiate 
meaningful discussion regarding the applicant's experiences in the 
military and his or her post-military career ambitions, including where 
he or she would like to live and work. These consultations are designed 
to select the applicants that have the desire and aptitude to 
successfully complete the PAT-VP program and have the opportunity to 
sustain a long and successful career in the finishing trades industry. 
These one-on-one consultations are critical to the PAT-VPs ability to 
ensure the effective use of resources and to be able to work 
successfully to place participants into apprenticeship programs and 
employment upon graduation.
    Once in the program, transitioning military men and women receive 
an accelerated three-week immersion program that combines classroom and 
hands-on learning. PAT -VP curriculum consists of 120 hours of 
classroom and hands-on training to prepare to return military personnel 
with the basic knowledge, skills, and abilities to perform craft 
specific work as an Industrial Applicator or Glazier. In the industrial 
coatings track, students will learn to apply their theoretical 
knowledge and skills to the corrosion protection of steel and concrete 
on complex industrial/marine structures through coursework in health 
and safety, surface preparation and coating materials properties, and 
application. In the glazing track, students will learn to apply their 
theoretical knowledge and skills to the fabrication and installation of 
glass doors, windows and building envelope.
    The IUPAT has collaborated with the Finishing Contractors 
Association (FCA), the Labor Management Cooperation Initiative (LMCI), 
and the Finishing Trades Institute to create the PAT-VP program. The 
PAT-VP program is funded by the IUPAT and the FCA and is managed by the 
FTI. The FCA is the employer partner of the IUPAT and works with its 
employer members to find work opportunities for the participants of the 
PAT-VP program. The LMCI is a jointly administered industry advancement 
fund that seeks to grow the market share of the union construction 
companies that provides the PAT-VP program with vital industry 
information and the administrative structure for the PAT-VP program.
    PAT-VP has held pre-transition training programs at Joint Base 
Lewis-McChord (JBLM), The first graduating class graduated from their 
apprenticeship and are now journey worker industrial painters in August 
of 2017. We successfully placed, into an apprenticeship program and 
placed them at work for a signatory employer. We had 100% placement 
rate and we have had 100% retention rate from that first class. 
Overall, our placement rate is around 90%, and our retention rate is 
80%. Average wages for first-year apprentices departing our program at 
JBLM are $18/hour plus health care and contributions to a defined 
benefit pension plan. After showing additional competency by completing 
each semester of the apprenticeship program, the apprentices earn an 
increase in pay.
    The IUPAT is dedicated to providing service men and women the 
training necessary to be successful in a rewarding, lifetime career in 
construction.

How IUPAT Apprentices use the 9/11 GI Bill:

    Benefits for On-the-Job and apprenticeship training are available 
for Veterans under the various VA educational assistance programs, 
including the Post-9/11 GI Bill. These programs allow Veterans to learn 
a trade or skill through training on the job rather than by attending a 
formal program of classroom-based instruction yielding a degree or 
certificate. A Veteran generally enters into a training contract for a 
specific period with an employer, and at the end of the training 
period, the Veteran gains job certification or journeyman status.
    The utilization of the Post 9/11 GI Bill benefits vary greatly from 
apprentice to apprentice from how they enter the apprenticeship 
program, to which of the crafts we represent they are working in and 
where they are living. This flexibility is a good thing, it enables the 
veteran to use the benefits in a way most useful to their individual 
situation.
    Largely we encourage veterans who enter our apprenticeship program 
not to use their GI benefits if they do not have to. Our apprenticeship 
program is fully funded by joint contributions from members and their 
employers; therefore, the veterans our programs serve do not need to 
use their benefit to pay for educational purposes. If a veteran in our 
program is interested in going on to become a construction contractor, 
to transfer the credits he or she has earned in the apprenticeship 
program into a Associates Degree or otherwise take classes to better 
themselves outside of our training, we encourage them to use their GI 
benefits in this manner.
    Of the apprentices across the country who use their GI bill 
benefits, do so to offset housing costs or make up the difference in 
pay. However, because of the tiered pay scale of apprentices, the 
further they get in the program the less likely they are to need to use 
their GI benefits. The apprentices who enter our program leaving the 
military bellow E-5 in most areas of the country do not use their GI 
benefits, in most areas of the country their pay as a first-year 
apprentice is equivalent to their pay in the military. Those who leave 
the military at E-6 or above tend to use it for roughly half of the 
apprenticeship program.
    The IUPAT's apprenticeship program prides itself on being able to 
provide the highest quality training in the industry partnered with 
livable wages and benefits that enable our apprentices to build careers 
that will support a family. The Post 9/11 GI Bill has been very helpful 
to offset the apprentices MHA and set the apprentice up to transfer the 
skills learned in the service, in the apprenticeship program and on the 
job training into the career of his or her choice.

Policy Recommendations:

    The joint labor-management structure of our apprenticeship programs 
described above also ensures that the training provided is directly 
connected to market needs. Construction contractors must constantly 
adapt to changing technologies in an ultra-competitive marketplace. 
Because those doing the hiring run joint apprenticeship programs, the 
training offered is exactly what needed to compete and win.
    Available slots in jointly funded apprenticeship programs are 
subject to market restraints. Because market participants fund these 
programs, class slots are only created when there are employers willing 
to hire those enrolled in the classes. This market-oriented approach 
ensures that our programs are designed to fill the jobs of today, 
tomorrow and 5 years from now.
    The U.S. Government is the largest purchaser of construction. In 
2016, the US Government spent $22,515,000,000 on federally funded 
construction. The Bureau of Economic Analysis estimates 18 jobs are 
created for every million dollars of construction. This means that 
using a normal ratio of three journeymen to each apprentice, each 
million dollars of federal spending creates a need for three 
apprentices.
    In short, construction spending not only creates jobs; it creates 
educational opportunities that lead to good, middle-class careers. It 
does this at no additional cost because apprenticeship programs are 
funded privately. By building and re-building our nation's 
infrastructure our militaries bases, we can also build the labor force 
of the future.
    The Committee should consider ways to incentives or encourage the 
use of apprentices on all federal construction spending, as we know 
that this is the best way to increase apprenticeship slots and 
therefore increase access to these programs, this, in turn, will 
increase the number of Veterans building career paths in the 
construction industry. The requirement or encouragement for contractors 
to hire apprentices does not increase the cost of the project at all, 
in fact, it decreases the labor costs associated with the project.

Appropriations Policy included in National Defense Authorization Act of 
    2018

    Our IUPAT Washington State District Council and the Washington 
State United Association of Plumbers, Pipefitters, Welders and Service 
Technicians have been working with Congressman Adam Smith and 
Congressman Derek Kilmer to add language into the Fiscal Year 2018 
House NDAA Committee Report that clarifies language of Section 2805 Ike 
Skelton National Defense Authorization Act of 2011, thereby encouraging 
the utilization of veteran construction apprenticeship programs.
    Section 2805 of the Ike Skelton National Defense Authorization Act 
for the fiscal year 2011 (Public Law 111-383) expressed the sense of 
Congress regarding the establishment of a ``Veterans to Work'' pilot 
program to provide an opportunity for apprentices who are also 
veterans, to work on military construction projects. We ask that 
Congress approve the Committee Report language in the FY2018 NDAA which 
further defines Section 2805 by providing that ``state certified and 
Federally recognized apprenticeship training programs can help with a 
military service member's transition to a civilian career. Therefore, 
the committee encourages the Secretary of Defense and the Secretaries 
of the military departments to seek opportunities to increase the 
utilization of veterans' apprenticeship programs on military 
construction projects.''
    We support the inclusion of this language as it further encourages 
the Secretaries of the military to seek out those opportunities to 
utilize veteran's apprenticeship programs on military construction 
projects.

Base Access for apprenticeship program/pre-transition programs

    Despite our consistent efforts to provide Vets with the skills to 
obtain a good job, it is can be a tough task for our trainers and 
programs to access military bases. There are several bases where the 
leading officer has seen the benefit our program can provide to 
transitioning Veterans. One of those military bases where access has 
been granted is the Joint Base Lewis-McChord in Washington State.
    With the support of JBLM staffers, we started ``Intro to 
Construction Trades Apprenticeships'', using Helmets to Hardhats as the 
vehicle through which service members would enter the trades 
Apprenticeships. We are now permanently at JBLM housed each week on 
Tuesday at Stone Education Center. We stay as long as the Service 
Members need to find the answers to their questions on transitioning 
into whichever Apprenticeship that interests them. It works when we all 
work to make the opportunity available to veterans.
    Base access to not only transitioning service members is critical 
to the success of our programs and many others. At some bases, the 
Department of the Army has included in its transitional briefing of 
service members prior to their separation of service, the ability for 
apprenticeship programs to present the opportunities they provide. We 
encourage this committee and Congress to promote the continued use of 
outside presentation and transitional briefings and education of 
counselors on base, to make sure service members know well before 
separation about the value of apprenticeship and living wage careers in 
the construction industry. Pre-transition training programs, like PAT-
VP, are the most effective way of ensuring employment upon separation 
from service.

Conclusion

    The needs of tomorrow's workforce require us to adopt proven 
programs. The IUPAT is working with our employers, industry partners 
and members to ensure that our training meets the needs of the market 
place; the delivery of that training meets the needs of the apprentice 
and journey worker. With apprenticeship programs driving skills 
training, we can meet the fill the current and any future workforce 
needs. The US Government's procurement process can help accelerate the 
number of Source: Reed, D. et. al. (July 25, 2012). An effectiveness 
assessment and cost-benefit analysis of Registered Apprenticeship in 10 
States. Retrieved from http://wdr.doleta.gov/research/FullText--
Documents/ETAOP--2012--10.pdfapprenticeship slots available and in 
doing so can continue to drive the apprenticeship system to continue to 
be driven by market and technological changes happening in the 
industries and workforce they serve.
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
committee members, I look forward to answering your questions and 
continuing this discussion, which is critical for our economic 
competitiveness, the future of our workforce and the quality of the 
communities we live and work.

\1\ Owens, T. (2015). NABTU. Retrieved from http://www.bctd.org/
    Newsroom/Blogs/Presidents-Message/November-2015- %281%29/It-s- 
    National-Apprenticeship- Week-And- Nobody-Does.aspx
\2\ Owens, T. (2015).
\3\ Consus.gov. (2017). Retrieved from https://www.census.gov/
    construction/c30/historical--data.html
\4\ BEA. (2017, 3 27). www.bea.gov. Retrieved from https://www.bea.gov/
    regional/rims/rimsii/illustrativetables.aspx

                                 <F-dash>
                Prepared Statement of Sam Shellenberger
Introduction

    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
Members of the Subcommittee, thank you for the opportunity to provide a 
statement for the record of today's hearing. I commend you all for your 
dedicated efforts to ensure that America fulfills its obligations to 
our current service members, veterans, and their families. The 
Department of Labor (DOL, or the Department) also works hard every day 
to ensure that these brave and committed individuals have the 
employment support, assistance and opportunities they deserve. As 
Deputy Assistant Secretary for the Veterans' Employment and Training 
Service at DOL, I appreciate the opportunity to address how we can 
improve access to GI Bill approved Apprenticeship Programs and how 
these programs benefit veterans.
    Secretary Acosta refers to apprenticeship as an important form of 
``demand driven education'' that focuses on the skills required by the 
modern workplace. Apprenticeships combine a paid work component with an 
educational component that teaches the skills necessary to succeed in a 
job. Apprenticeship is a critical part of this Administration's jobs 
agenda- ensuring workforce training programs combine strong employer 
engagement with high quality training to create pathways for workers 
into high-growth occupations. This strategy is designed to meet 
employers' needs for skilled workers, and provide millions of Americans 
with secure jobs that lead to long-term employment with good wages.
    Apprenticeships provide a tremendous opportunity (or pathway) for 
veterans to attain meaningful employment and rewarding careers. 
Eligible Post- 9/11 veterans can learn a trade through apprenticeships 
and use their GI Bill benefits to receive a tax-free monthly housing 
allowance paid by the Department of Veterans' Affairs (VA), in addition 
to their apprenticeship wages. This allowance gradually decreases as 
the veteran's wages increase throughout the apprenticeship period and 
ends once the veteran attains journeyman status and pay. Post-9/11 GI 
Bill recipients can also receive a books-and-supplies stipend during 
their apprenticeship. This is a vital way to help veterans meet their 
expenses while in training.
    In August 2017, the unemployment rate for veterans was 3.7 percent, 
while the non-veteran unemployment rate was 4.4 percent. I am happy to 
report that these rates are down from a high of 8.7 percent for 
veterans and 9.4 percent for nonveterans in calendar year 2010. 
Notwithstanding this positive trend, in August 2017, we still have 
374,000 unemployed veterans among the 6.9 million Americans who are 
unemployed. The good news is that the Nation has 6.2 million job 
openings, and we can get most Americans back to work if we can match 
those who are looking for work with available jobs. But, businesses 
report having difficulty finding workers with the skills demanded by 
the modern workplace. That is why, on June 15, 2017, President Trump 
signed Executive Order 13801, Expanding Apprenticeships in America 
(EO), reinforcing his commitment to preparing workers for existing jobs 
and for the jobs that will be created in the future.
    Through the Executive Order, the President has made it the policy 
of the Federal Government ``to provide more affordable pathways to 
secure, high-paying jobs by promoting apprenticeships and effective 
workforce development programs, while easing the regulatory burden on 
such programs....'' Among other things, the EO directs Secretary 
Acosta, in consultation with the Secretaries of Education and Commerce, 
to consider regulatory action to promote the development of industry-
recognized apprenticeship programs by qualified third parties, and 
establishes a Task Force on Apprenticeship Expansion, to be chaired by 
Secretary Acosta. The President also specifically tasked the 
Secretaries of Defense, Labor, Education, and the Attorney General, in 
consultation with each other and consistent with applicable law, to 
promote apprenticeships and pre-apprenticeships for, among others, 
members of America's armed services and veterans.
    We at the Department are committed to working with our Federal 
partners to assist our service members and veterans in accessing these 
programs so they can develop the skills that employers value, and 
obtain the secure, high paying jobs that are driving the U.S. economy 
forward in the 21st century.

Benefits of Apprenticeship

    In the United States, the best apprenticeship approaches from 
around the world can be refined and applied in new and dynamic ways 
that fit with our economy and labor market. Global companies that do 
business in America and are familiar with the benefits of 
apprenticeship as a human capital solution are helping lead the way. 
For example, in Texas, graduates from Mercuria Energy's apprenticeship 
program joined President Trump during the announcement of the 
Apprenticeships Executive Order. The apprentices are university 
graduates and military veterans. Mercuria brought intensive one-year 
on-the-job development training to Houston as part of their 
apprenticeship program. In Alabama, Mercedes-Benz partners with a 
community college to train workers for their plant, which employs more 
than 3,500 of the state's residents. \1\
---------------------------------------------------------------------------
    \1\ http://www.al.com/business/index.ssf/2016/08/post--408.html
---------------------------------------------------------------------------
    Apprenticeships have proven to be an effective way for veterans to 
advance into productive careers. As of September 15, 2017, there are 
19,287 veterans actively participating in programs registered with the 
Department's Office of Apprenticeship (OA). A total of 3,749 \2\ 
veterans have completed a training program registered with OA or DOL-
recognized State Apprenticeship Agencies since the beginning of Fiscal 
Year 2016. The employment outcomes for apprenticeship programs are 
impressive. In fact, according to the Department's data, 91 percent of 
apprentices are employed after completing their programs, with an 
average starting wage above $60,000. Apprenticeships have also been 
shown to increase a worker's lifetime compensation by over $300,000, as 
compared to their peers. \3\
---------------------------------------------------------------------------
    \2\ Source: Registered Apprenticeship Partners Information Data 
System (RAPIDS) Data pulled September 15, 2017.
    \3\ Reed, D. et. al. (July 25, 2012). An effectiveness assessment 
and cost-benefit analysis of Registered Apprenticeship in 10 States. 
Retrieved from http://wdr.doleta.gov/research/FullText--Documents/
ETAOP--2012--10.pdf
---------------------------------------------------------------------------
    Apprenticeships also make good business sense for employers. The 
return on investment (ROI) is notable - international studies suggest 
that for every dollar spent on apprenticeships, employers may obtain an 
average of $1.47 back in increased productivity, reduced waste, and 
other benefits. \4\ For apprenticeships in the United States, for every 
public dollar invested the tax returns are more than $27, and the total 
benefits (including the reduced use of public benefits) are more than 
$35 per dollar invested, on average. \5\
---------------------------------------------------------------------------
    \4\ Source: Canadian Apprenticeship Forum. (June 2009). It Pays to 
Hire an Apprentice: Calculating the Return on Training Investment for 
Skilled Trades Employers in Canada. (Retrieved from https://
www.novascotia.ca/lae/Apprenticeshipboard/documents/CAF-FCA--ROTI--it--
pays--to--hire--an--apprentice--ExecutiveReport--En--000.pdf
    \5\ Source: Reed, D. et. al. (July 25, 2012). An effectiveness 
assessment and cost-benefit analysis of Registered Apprenticeship in 10 
States. Retrieved from http://wdr.doleta.gov/research/FullText--
Documents/ETAOP--2012--10.pdf

---------------------------------------------------------------------------
Promoting Apprenticeships for Veterans

    The Department of Labor oversees a portfolio of workforce programs 
that help job seekers, including veterans, find jobs and advance their 
careers. This includes responsibility for administering and providing 
promotion and oversight of apprenticeship programs nationwide. The 
Department is actively engaging with companies that want to focus 
specifically on hiring veterans in apprenticeships, and has increased 
its collaboration across the government - including with VA - to ensure 
that veterans can succeed in apprenticeship opportunities and receive 
the benefits they've earned under the Post-9/11 GI Bill.
    DOL has greatly expanded outreach to employers, utilizing industry 
intermediaries, which has motivated companies from a variety of 
industry sectors to have their apprenticeship programs approved by the 
Department. They join the family of approximately 20,000 registered 
apprenticeship programs across the country that are training over 
545,000 active apprentices for high demand occupations - while securing 
a thriving and skilled workforce for the future.
    The Department continues a Veteran Employment Outreach Program to 
make it easier for companies to find and hire veterans by leveraging 
federal, state, and local resources. A National-to-Local engagement and 
integration strategy informs and coordinates action among government, 
private sector, and local communities to enhance veterans' employment 
opportunities and to leverage the national workforce system and their 
network of over 2,400 American Job Centers (AJCs) nationwide. This 
program provides a valuable bridge between national and regional 
employers who are eager to hire veterans and workforce development 
staff at AJCs who build relationships with local employers and assist 
veterans in gaining meaningful employment.
    Additionally, the Department funds Local Veterans' Employment 
Representatives (LVERs), who are housed in AJCs to specifically work 
with employers, on the local level, who are interested in recruiting, 
retaining, and training veterans and transitioning service members.
    Two years ago, DOL deployed Regional Veterans Employment 
Coordinators (RVECs) at our Regional Offices with a mission to conduct 
employer outreach in order to connect companies with federal, state, 
local, and other resources to facilitate veterans' employment. A key 
task of the RVECs is to consult with companies on their needs, educate 
them on resources and assist them with developing apprenticeships to 
address the skills gaps and to attract more veterans.
    VETS referrals to the Office of Apprenticeship include companies 
like Amazon, which established a new apprenticeship program with the 
Department earlier in 2017, to train veterans for careers in technology 
at the online retail giant. It is the company's goal to hire 25,000 
veterans and spouses of military personnel over the next five years. In 
the last year, approximately 30 employers that were referred to the 
Department ultimately established an apprenticeship program, or are 
awaiting approval for one.

Educating Veterans and Transitioning Service Members on Apprenticeship

    The Department seeks to close the skills gap by connecting 
employers who are looking to fill job openings with employees, 
including veterans, who have industry-recognized skills and 
credentials. One opportunity to connect transitioning service members 
to apprenticeship programs is through the Transition Assistance Program 
(TAP). The TAP DOL Employment Workshop is a 3-day workshop that 
provides employment assistance to transitioning service members and 
their spouses by giving them the tools necessary for a successful 
transition from military to civilian life. Information regarding 
apprenticeships is included in the TAP curriculum. The Department 
presented 6,313 workshops to nearly 184,000 service members at 206 
locations worldwide last year. At present, DOL is conducting a thorough 
curriculum review with the intent of providing additional useful 
information; a revised Employment Workshop curriculum is currently 
scheduled for implementation in early 2018.
    In April 2017, the Department assumed responsibility for the TAP 
Career Technical Training Track (TAP CTTT) from VA. TAP CTTT is an 
optional two-day workshop for transitioning service members and their 
spouses. This workshop focuses on apprenticeships and industry- 
recognized credentials. It provides these service members with an 
excellent opportunity to identify their relevant skills, increase their 
awareness of training and apprenticeship programs that can lead to 
industry- recognized credentials and meaningful careers, and develop an 
action plan to achieve their career goals. The Department is also 
undertaking a comprehensive review of the CTTT curriculum, and has 
reached out to employers, industry associations, and other 
stakeholders, asking for participation in the examination of both the 
DOL Employment Workshop and the CTTT offerings. Their valuable input 
will help to ensure the curricula are up-to-date and relevant to the 
dynamic employer and industry standards. As with the Employment 
Workshop, DOL expects to implement a revised CTTT in early 2018.
    DOL supports the opportunities available under the DoD SkillBridge 
initiative, which promotes DoD's authority to offer civilian job 
training to transitioning service members. Service members meeting 
certain qualifications can participate in civilian job and employment 
training, including pre-apprenticeships, on-the-job training, and 
internships in their last 180 days of active duty. Tremendous potential 
exists for service members, companies, trade unions, and others to 
leverage this DoD authority and smooth a service member's path from 
active duty to civilian employment.
    The Department also strongly supports the United Services Military 
Apprenticeship Program (USMAP). USMAP is an active duty apprenticeship 
program that provides a certificate of completion of apprenticeship in 
the occupation in which the member has his or her Military Occupational 
Specialty (MOS) or Navy/Coast Guard rating. This certificate allows 
service members to join the workforce at the journeyman level after 
they transition. Currently, there are more than 100,000 active duty 
apprentices learning skills in more than 115 occupations, ranging from 
airframe mechanics to fire fighters to computer operators.
    Finally, the Department provides a 24/7 online resource, 
VETERANS.GOV, which is easily accessible to all veterans, as well as to 
employers who want to hire veterans. The site is designed to be the 
virtual ``first stop'' for veterans, transitioning service members, and 
their spouses, in the employment search process - and for employers in 
the hiring process. The site brings together job banks, state 
employment offices, AJCs, opportunities in top trending industry 
sectors, and employer assistance, all in one online spot. There are 
links to several platforms that veterans can use to help translate 
their military skills into skills for the civilian workforce, as well 
as information on apprenticeships.

Summary

    Apprenticeships provide demand-driven education and training that 
focus on the skills required by the modern workplace. Apprenticeship is 
gaining popularity throughout the United States. Leveraging 
apprenticeship as a human capital solution enhances the ability of 
employers to attract and retain veterans and achieve business success. 
The Department looks forward to working with the Subcommittee to ensure 
that our veterans and separating service members have the resources and 
training they need to successfully transition to the civilian 
workforce. DOL supports VA's ongoing efforts to make the Post-9/11 GI 
Bill administrative process easier for regional and national employers, 
so that they can increase the number of companies that offer benefits 
to their veteran apprentices.
    The improving employment situation for veterans is a resounding 
testament to the response from stakeholders, both public and private, 
at the national level and within local communities. Mr. Chairman, 
Ranking Member, distinguished Members of the Subcommittee, this 
concludes my statement for the record. Thank you again for the 
opportunity to be a part of this hearing.

                                 <F-dash>
                       Statements For The Record

                          MS. LORING RECTANUS
Additional Material for Transcript Insertion

    The following material is for insertion into the transcript for the 
hearing on VA mail management, held on September 12, 2017, by the 
Oversight and Investigations Subcommittee, Committee on Veterans' 
Affairs, U.S. House of Representatives. This material should be 
inserted on page 25 of the transcript, where Ms. Lori Rectanus 
references providing information as to whether there are any agencies 
that might be considered role models in mail management:
    During the course of our audit work, GAO did not explore the mail 
management practices of agencies other than VA, and no agencies were 
mentioned by anyone with whom we spoke as being role models in this 
area. We followed up with the General Services Administration (GSA) on 
this issue, and GSA officials stated that they did not have information 
regarding any agencies that could be considered role models with regard 
to mail management.

                                 <F-dash>
                         MERCEDES-BENZ USA, LLC
    Dear Chairman Arrington, Ranking Member O'Rourke:

    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Economic Subcommittee, thank you for the opportunity to provide a 
statement for the record addressing GI Bill approved apprenticeship 
programs. The Subcommittee's hearing on U.S Department of Veterans 
Affairs -approved workforce development programs that utilize GI Bill 
benefits examines a tremendous public-private partnership opportunity 
uniquely suited to American men and women service members.
    On behalf of Mercedes-Benz USA, LLC (``MBUSA''), I appreciate the 
opportunity to provide the Subcommittee information on a program MBUSA 
has launched that seeks to identify, train, and employ U.S. veterans at 
Mercedes-Benz dealerships across the country.
    Headquartered in Atlanta, Georgia, MBUSA is responsible for the 
distribution, marketing and customer service for all Mercedes-Benz 
products in the United States including Mercedes-Benz Vans and smart.
    In 2015 Mercedes-Benz USA launched MB DRIVE. MB DRIVE aims to train 
the next generation of automotive service technicians. The program 
began in response to the over 300 Mercedes-Benz dealers in the United 
States that are increasingly finding it difficult to recruit, train, 
and retain skilled automotive technicians to work in their service 
departments. The problem is exacerbated by a growing U.S. car park 
(vehicle population), increasingly sophisticated vehicle designs, and a 
qualified technician workforce in decline. MB DRIVE intends to respond 
to that challenge.
    The challenge is growing. In 2014 the U.S. vehicle park was 
approximately 3.42 million. That year the number of technicians 
required to meet that demand for service stood at just over 4,130 
nationwide. Fast forward to 2020 and 2028, the vehicle park is 
estimated to grow to 4.71 million and 6.2 million respectively. To 
service those vehicles U.S. dealerships will need 6, 930 technicians in 
2020 and 9, 110 technicians in 2028. Dealerships are experiencing 
severe technician shortages that are only compounded by the high, 25 
percent rate of turnover among technicians. As vehicles become 
increasingly electric and connected more technicians with the right 
skills set are needed to diagnose and troubleshoot vehicle faults.
    MB DRIVE began accepting students in October 2015. MB DRIVE courses 
are taught at four locations in Grapevine, Texas, Jacksonville, 
Florida, Long Beach, California and Norwood, Massachusetts. The 16-week 
technician training and development program gives qualified students 
the opportunity to learn extensive Mercedes-Benz product knowledge, 
customer service best practices, and career preparation. With a format 
that includes 90 percent workshop instruction and 10 percent classroom 
setting students gain hands-on experience with Mercedes-Benz vehicles 
and equipment including information systems and other in-demand 
automotive technician skills.
    In July 2017 MBUSA announced that it had received approval from the 
U.S. Department of Veterans Affairs including State Approving Agencies 
to become the first luxury automotive manufacturer to offer a 
Registered Apprenticeship Program in four States, certifying MB DRIVE 
as part of the National Apprenticeship System. It is now an official 
apprenticeship program certified by the U.S. Department of Labor and 
U.S. Department of Veterans Affairs. This distinction allows military 
veterans to receive their GI Bill benefits during the four month 
program, but also up to eight months of GI Bill benefits once employed 
by an authorized Mercedes-Benz dealers. After only six months of 
dealership experience, students will become Service Technicians- a 
title that can take years to earn outside of MB DRIVE. MBUSA will soon 
begin the process of identifying, recruiting, and onboarding U.S. 
veterans at the four approved location sites.
    MBUSA is proud to help military veterans utilize their unique 
skills set and develop meaningful, technical careers. Recognizing 
veterans' high level of commitment, technical hands-on experience, keen 
ability to work as a team, and quickly and adeptly problem-solve, MBUSA 
believes these individuals are excellent candidates for addressing the 
workforce needs at dealerships. With this in mind, MBUSA looks forward 
to fully ramping up the MB DRIVE program to America's veteran heroes.
    MBUSA appreciates the Subcommittee's interest in this subject and 
invites Members to tour any one of our four locations to better 
understand the MB DRIVE program.

    Thank you.

                                 <F-dash>
                        Terry Jenkins, NC-EXPERT
    To: Chairman and Committee Members of the Economic Opportunity 
Subcommittee

    Subject: Testimony for Record for House Committee Meeting; ``How to 
Improve Access to GI Bill Approved Apprenticeship Programs and How 
these Programs Benefit Veterans'' Scheduled for Wednesday, September 
27, 2017 @ 2:00PM

Background

    I am an Air Force Special Operations (JTAC) veteran. My father was 
a Navy SEAL in Vietnam. My grandfather was an Army Green Beret that 
served in three wars. My father-in-law is a retired Navy Captain 
Aviator. My brother an Annapolis graduate and retired Lt. Col in the 
Marines who served multiple tours in Iraq and Afghanistan. My two sons 
are both recent Navy veterans. I am telling you this to set the tone 
that we are not a company trying to sell to veterans we are veterans 
simply trying to use our company to help other veterans.
    NC-Expert specializes in training engineers in cutting edge IT 
skills. We are a very strategic training partner to companies like 
Cisco and other very large IT firms. Personally, I never utilized any 
of my VA benefits. As a matter of fact, in the 19 years since I 
separated from the USAF, I have never set foot in a VA facility. 
Frankly, the system failed and never really offered me anything useful. 
I couldn't use my education benefits to attain the skills I needed in 
the IT space because the benefits were not accepted for this type of 
education, and I would have been forced to interrupt my career to go 
after a traditional degree which was not being valued or requested by 
the employers that I was pursuing.
    As a training company, we have never pursued accepting VA education 
benefits for our services because the VA has made it practically 
impossible to get approved as a vendor.
    I have been on a journey of learning about apprenticeships, the 
DOL, and VA, and trying to help veterans for over 8 months. I have 
dedicated time and resources to trying to find a way to help my veteran 
brothers and sisters make better lives for themselves. I have not yet 
made it all the way through the battle but my hope is that, by 
describing my experience and identifying the issues, I may be able to 
help this committee create better programs to help more veterans.

Initial Phases

    In March of this year it was brought to my attention, by several 
veterans, that other training companies had received VA benefits 
approval, so I began to research to see if things were finally 
changing. To my unfortunate surprise, these companies not only received 
approval but they were charging vets $40-50,000 for courses that were 
pretty much useless and outside the current market. This blatant waste 
of government and veteran resources infuriated me. There was no 
consistency in why they got approved and a closer look only showed they 
had been crafty enough to work around the system.
    In addition, I saw programs for sex massage, personal investment, 
yoga, you name it. NC-Expert offers high-skill IT training, that 
results in marketable skills and high salaries, so I wondered why we 
were unable to access the same system to offer a completely helpful and 
relevant service. The same courses we offer are already requested from 
us by the military, government, and Fortune 50 companies every day. but 
vets can't use their benefits to acquire this exact same training. The 
process has lost its common sense.
    For example, we currently have multiple courses scheduled that were 
requested by the US Air Force and Navy. When we conduct this training 
using our facility, or our advanced remote attendance platform, these 
active duty military members take and earn the skills that their units 
require. However, if one of these sailors or airmen separate from the 
service the following week they would not be able to take that exact 
same course and use their benefit to pay for it. As a person who makes 
a living from these skills, and contributes money from both my personal 
and corporate taxes, it confuses me how the VA can decide that those 
same tax dollars can't be used for the veteran when they are used for 
active duty military. There is no logic to this.
    I did some research and made a few inquiries and ran across the 
Department of Labor's Registered Apprenticeship Program. This program 
offered a new model that I thought could be leveraged to help many 
veterans. In short, the program has been around since the 1920's and 
many careers and occupations are covered however, the attempts to 
create a relevant IT apprenticeship were unsuccessful. There were 
several approved bulletins, but all are over 15 years out of date. I 
approached the DOL office in Washington DC and was quickly introduced 
to the Regional Director assigned to the IT sector, Patricia Garcia, 
out of the San Francisco, CA office.
    My initial meetings with her team were incredible. Patricia and her 
team were both helpful and excited to have a profit-based company take 
an active interest in the program and be willing to offer up something 
more relevant to potential employers. As an IT training company our 
normal customers are corporations purchasing our training to build the 
skills of their IT teams. We are recommended by the vendors that create 
and sell these technologies because we have specialized in the highest 
tier of certification and skill building. We have traditionally focused 
on training the top 2% of the IT certified market. This places NC-
Expert in a unique position: these same executives and managers that 
fund their respective company's training are the same people and team 
leaders that would be hiring the veterans. We can introduce the 
veterans to key players in many leading companies. Our goal is not to 
hire a few veterans. Our goal is to be an advocate and help many 
companies hire many veterans.
    We took the time to re-write and update the program and then 
pursued making it an official Registered Apprenticeship program. The 
recommended strategy at the time was to go state by state and create 
the programs at that level. The thought was that the local state level 
DOL and VA directors could help to push this as their preferred IT 
program - one they could stand behind. We quickly enrolled CA, MS, and 
AL. According to the law, policies and public advertisements, these 
programs were required to be automatically approved under VA benefits 
to include BHA assistance, GI Bill, Vocational Rehab, and any other 
benefit the veteran could get within 30 days from the time the DOL 
approved it. It would also approve us for state and federal workforce 
development funds. All of this sounded excellent as a way the veterans 
could use the benefits they had earned to get skills to help them start 
very lucrative careers - careers that routinely offer well above 
$100,000 a year in salary. Unfortunately this sounded, and turned out 
to be, too good to be true.
    As a veteran, I am tired of seeing my fellow veterans walking 
around like the homeless - accepting whatever we can get. A veteran 
should be prized for the service they have rendered to our country. 
They should be at the top of the market. After serving, they deserve 
help to propel them into their next career. Instead, the market is now 
full of organizations simply looking to take their benefits. They get 
degrees, or other low-level training that take all of their education 
benefits and then they are stuck with unmarketable skills that no 
employer wants. We saw this program as a way to offer something 
different.
    As an American working in the IT industry, I am sick of seeing high 
paying jobs going to H1B Visa-holders because there are not enough 
Americans with the relevant skills. The skills these people get to 
qualify for the jobs are also directly related to the training and 
credentials we offer such as Cloud, Cyber Security, Wireless, and 
Mobility. We have included over 5,500 hours of on-the-job-training and 
over 900 hours of formal education in the classroom, within the program 
This results in 15 of the most searched for credentials in the IT job 
market.
    This is an area where the DOL and VA have tried to create a one-
size-fits-all model. For electricians and truck drivers the 
apprenticeship program is perfect. A veteran could come out of the 
military and get hired by a trucking company. As they learned how to 
drive and began earning their CDL license they would become of more 
worth to their employer, so the company would increase their 
compensation. They would not be sent outside the company for any formal 
training so there would be no need for tuition. In this case, the VA 
would allow them to take a housing stipend to offset the living costs 
while earning these new skills. On the other side of the coin you have 
a veteran that separates with the hopes of being a CPA. This vet would 
enroll in a normal university and pursue a degree. and the VA would pay 
the tuition. The degree itself would enable this veteran to begin a 
career at a healthy salary. In IT we tend to use both models and this 
is where it breaks the DOL and VA traditional program(s).
    In the late 1990's corporations began to realize that IT was 
adopting and changing so quickly that the degrees being taught were 
only preparing the graduates with theoretical knowledge. For the same 
companies that were investing millions in IT systems and 
infrastructure, they were looking to add engineers to keep these 
systems running. Today, most companies measure lost dollars during IT 
outages in millions by the millisecond. The high salaries earned by IT 
engineers are justified in their direct knowledge of, not only the 
theory, but the practical application of the products. Essentially, the 
better trained they are, the faster they fix the problems, and the less 
revenue the company loses. The major vendors such as Cisco, addressed 
this by creating certification programs. They modeled the program after 
the formal training learned in a classroom in the university, but 
augmented it with increasing levels of product specific knowledge and 
experience. I have been in this field for two decades and have earned 
well over $250,000 a year for many years. If I added up the formal 
hours of training I have taken in a classroom and applied it to a 
degree program, I would have multiple PhDs by now.
    The standard value of this training, which we get on a daily basis, 
selling these same cutting-edge courses to corporations is well over 
$100,000. We choose not to keep the same profit margins when offering 
this program for veterans, but still kept the same courses. Many of the 
other companies selling IT related training to veterans, often hire the 
lowest end instructors, write their own courses and create numerous 
ways to make the program cheaper, so they make more money. We choose to 
go the opposite route: we hire the highest end talent, use the 
authorized courses form the vendors that are updated quarterly, and 
simply choose to make less money.
    By design, our program is the least profitable program in our 
company. We want to be able to say we are helping veterans and mean it. 
We want to stay profitable as a company, but not off the backs of 
veterans.
    We designed the program where the veteran can get our program for 
under $50,000 while also getting a career in IT with steady pay 
increases and excellent salaries. We are able to give the veteran a 
realistic and relevant IT education while also helping with the 
unemployed or underemployed status they are in. Many of these veterans 
served and rose through the ranks only to come out and take jobs as 
truck drivers, correction officers, etc. They have families and are 
living on less than $50,000 a year, many much less, which is unfair for 
these guys who gave so much! We are not saying those careers are bad 
but many of these guys have much more potential and frankly most of 
them are excited and ready to grow. What we are saying is that they are 
having to settle for any job because no one will give them a chance at 
a career.
    Our goal is clearly stated in that we choose the specific skills, 
courses and credentials in areas that are most likely to create future 
careers spanning 10-20 years. This is where we are different. The focus 
of a standard training company, or university, is to get the student 
trained as the end goal. For a recruiting company, it is to get them a 
job. We feel they need more than either of these, so we are trying to 
help them build a career. As CEO, I asked my team to do something very 
difficult: create a program that is almost unprofitable, and make sure, 
for that $50,000, we are arming them to make at least $1,000,000 over 
ten years. To me, skill training is an investment and should therefore 
produce a return on that investment. We took the most valuable skills 
and are providing them at the lowest cost.

Where We Are Today

    We moved very quickly in the beginning with the DOL, but the VA 
side has been terrible. I had to escalate to get a Director involved 
after two months with no communication and, unfortunately, I still 
cannot report that it has been completed. I have engaged four sitting 
Congressman in California, Georgia, and Pennsylvania as well as a 
candidate running for Senate but, unfortunately, the answer I am 
getting from the SAA and VA is still ``first come first serve'' We are 
overworked and undermanned. It seems that even congress has little pull 
to get things moving. I also found out that, after following the 
recommended strategy to go state by state, that the VA would not 
approve us unless we had a building in every state, they then informed 
me there was no need to go that route, anyway, since our program can be 
executed out of our head office in CA as a single location. So now I am 
having to go back to the DOL to request our program be approved as a 
national program, instead of a state program, so that the SAA on the 
DOL side will be able to find the program in their database in each 
state. To make matters more complicated, several of the people I was 
working with in the beginning are no longer in their positions. I have 
sent requests to the DOL contacts I was given in DC that this be done, 
but now I am receiving silence.
    We need this approval so that our company can be listed to receive 
VA benefits for these veterans so that they don't have to try to fund 
the program out of their already empty pockets. It is extremely sad 
that many of them would do this and, at the same time, watch their 
earned benefit go unused, just as I did, so they can get a career 
started. It wasn't worth the fight for me, personally, 19 years ago 
but, for these guys, I and my company are willing to fight today. We 
have new veteran organizations, VSOs and employers coming to us every 
day wanting to be involved. Many want to assist the veterans in getting 
connected to real jobs based on the skills they will get in the program 
but I cannot execute this without the VA approval, or national DOL 
approval. In many ways, after over 8 months, it feels like we are right 
back at square one.
    As of this moment, we have over 200 vets that have applied for our 
program. Many of them are already making payments of $50, $100 or $500 
to get started. out of their own pocket. We are not a VSO or a non-
profit that gets federal funds or grants (we haven't tried this route 
because we are experiencing enough trouble getting the program started 
as it is) so we have to operate as a typical profit-based business. To 
run the courses, we have operational expenses that we have to pay. 
Normally, customers pay us for the training before the course but, for 
the veterans, we are permitting many of them make monthly payments (no 
interest charges/no financing), some of them who are experiencing 
severe financial hardship, we are letting for free and eating the 
costs. We cannot do this for long, though, the risk and the expenses 
are not something we can absorb for a lengthy period.
    The veterans range from those that separated 5 years ago to those 
separating now. Many have high disability ratings and are eligible for 
Vocational Rehab funds as well.
    We need someone of power to step in and help us get through the red 
tape. We need this DOL program and the VA benefits to be available to 
veterans from any state in the US. We do not have buildings in every 
state nor do we plan to. We keep our costs very low so we can keep our 
prices very low. We leverage the technologies we teach in the training 
we do. Currently, as a business, we train people globally. Most of our 
students take the training through our live virtual platforms which 
leverage video conferencing and such. The 200 plus veterans we have 
today, are spread all over the US, as are the jobs we can get them. 
However, it seems this model doesn't fit the checklist the VA has, so 
they point to the SAA which, in turn, points back to the VA, in an 
endless circle of inaction.
    We have met with local veteran counselors that have reviewed the 
program and think it's great, but constantly tell the veterans that 
they cannot do anything until NC-Expert is in the database, then they 
could ``cut the check tomorrow''. So, simply put, we are currently 
caught in the muddy swamp.
    The two most recent Executive Orders on the President's desk are 
about DOL Apprenticeships and the VA, and the recent Forever GI Bill 
addresses IT. There is a provision outlining that the VA should create 
a program for IT certifications and the companies involved in this 
pilot program will be rewarded based on the number of veterans that are 
employed. The deadline for this program is to begin no later than 6 
months after August 2018, or January 2019. The statement says the VA 
will begin to try to do what we are trying to do now, and I can 
guarantee you my program will be a well-oiled machine by January 2019. 
NC-Expert is a profit based business, and we cannot afford for it not 
to be. I have reached out to the VA offering access to what we are 
doing, encouraged a partnership so the VA can benchmark our program. I 
realize this will eventually create competition in what we are doing 
but this is ok with us because, since there are 200,000 veterans 
separating annually, there are more than enough of them to help! To us, 
it would seem logical that a company stepping up to the plate to help 
both veterans and the under-skilled US workforce would get all the 
assistance they need but I can tell you it is not so.
    I have limited avenues to get to people in charge at the highest 
levels in the DOL or VA, and the number of weeks this is taking keep 
mounting up. We are now starting to see some of the first veterans that 
applied for the program lose both interest and hope in their future, 
for the same reason I did 19 years ago. It seems that the VA spends far 
more time worrying about the check boxes on its forms than helping the 
fathers, mothers, and people in general that fought for us. It is hard 
to call this a benefit because, when the rubber meets the road, very 
few veterans benefit from the process.
    I recently asked the SAA agent that visited our facility during the 
inspection what to do once the program is finally approved, in cases 
where veterans are not eligible for a full apprenticeship, those that 
have used part of their benefits already, or just veterans that want to 
take one or two of these courses and want to use their tuition 
reimbursement for the classes, what the process should be. The answer 
was ``I don't think we have any companies that are approved for both 
OJT and tuition reimbursement''. I asked why, and the response was, 
``We don't want veterans double-dipping''. From her statement, it 
appears that we can only be approved for one, or other, program. The 
result is that this will isolate the veterans that we can help. It also 
makes no sense whatsoever. If we even try to get this approved for 
tuition reimbursement, we would have to create a brand-new application, 
fill out a 20+ page application, go into another queue, possibly have 
to change our company structure to fit a university model. and, even 
then, have to go through the exact same process again. This, typically, 
can take almost two years. All of that just to approve me to teach the 
same course that the government, DOD, all four branches of the 
military, the DOL and the VA have already approved me for. This doesn't 
hurt us nearly as bad as the 1000's of veterans we could have helped by 
just teaching them a single course: a course that is already being 
directly paid for by other government departments.
    I appreciate the opportunity to tell my story and genuinely offer 
my services, my company, and my time to work with any congressman who 
would be willing to listen and act on behalf of the veterans that could 
be helped by this. I am more than willing to jump on a plane and 
personally tell this story during the hearing if the committee thinks 
it might help improve the process.
    I would be greatly humbled and encouraged if this committee could 
take action on our behalf to help us expedite the process and make sure 
the doors are opened for us to help our military veterans.

    Respectfully,

    Terry Jenkins
    USAF SOF TACP/JTAC VET
    CEO, NC-Expert
    706-678-2044 Direct Line
    917-715-5149 Mobile
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="295d4c5b5b50434c474240475a69474a044c51594c5b5d074a4644">[email&#160;protected]</a>

    References:
    NC-Expert Apprenticeship Program Overview- www.nc-expert.com/
veteran-apprenticeship.php

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
